<html>
<title> - PROMOTING THE BEST INTERESTS OF CHILDREN: PROPOSALS TO ESTABLISH A FAMILY COURT IN THE DISTRICT OF COLUMBIA SUPERIOR COURT</title>
<body><pre>[Senate Hearing 107-209]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-209
 
  PROMOTING THE BEST INTERESTS OF CHILDREN: PROPOSALS TO ESTABLISH A 
        FAMILY COURT IN THE DISTRICT OF COLUMBIA SUPERIOR COURT
=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
              RESTRUCTURING, AND THE DISTRICT OF COLUMBIA
                              SUBCOMMITTEE

                                 OF THE

                   COMMITTEE ON GOVERNMENTAL AFFAIRS


                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs









                           U.S. GOVERNMENT PRINTING OFFICE
76-803                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                     Cynthia Gooen Lesser, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                   Johanna L. Hardy, Minority Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                 RICHARD J. DURBIN, Illinois, Chairman
DANIEL K. AKAKA, Hawaii              GEORGE V. VOINOVICH, Ohio
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               THAD COCHRAN, Mississippi
       Marianne Clifford Upton, Staff Director and Chief Counsel
               Andrew Richardson, Minority Staff Director
          Mason C. Alinger, Minority Professional Staff Member
                     Julie L. Vincent, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Durbin...............................................     1
    Senator Akaka................................................     3
    Senator Carper...............................................    20

                               WITNESSES
                       Thursday, October 25, 2001

Hon. Mary L. Landrieu, a U.S. Senator from the State of Louisiana     4
Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     6
Hon. Tom DeLay, a Representative in Congress from the State of 
  Texas..........................................................     8
Hon. Mike DeWine, a U.S. Senator from the State of Ohio..........    10
Rufus King, III, Chief Judge, Superior Court of the District of 
  Columbia, acompanied by Lee Satterfield, Judge, Superior Court 
  of the District of Columbia....................................    25
Olivia Golden, Ph.D., Director, Child and Family Services Agency, 
  District of Columbia...........................................    29
Deborah Luxenberg, Chair, Children in the Courts Committee, 
  Council for Court Excellence...................................    31
Margaret J. McKinney, Co-Chair, Family Law Section, District of 
  Columbia Bar...................................................    33

                     Alphabetical List of Witnesses

DeLay, Hon. Tom:
    Testimony....................................................     8
    Prepared statement...........................................    51
DeWine, Hon. Mike:
    Testimony....................................................    10
    Prepared statement...........................................    56
Golden, Olivia, Ph.D.:
    Testimony....................................................    29
    Prepared statement...........................................    28
King, Rufus, III:
    Testimony....................................................    25
    Prepared statement...........................................    69
Landrieu, Hon. Mary L.:
    Testimony....................................................     4
    Prepared statement...........................................    45
Luxenberg, Deborah:
    Testimony....................................................    31
    Prepared statement with an attachment........................    81
McKinney, Margaret J.:
    Testimony....................................................    33
    Prepared statement with attachments..........................    90
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     6
    Prepared statement...........................................    48

                                Appendix

Congressional Research Service Memorandum, October 16, 2001, 
  ``Separation of Powers Issues in re D.C. Family Court Bill,'' 
  submitted by Mr. DeLay.........................................   106
State District Judge Scott McCown of Texas, prepared statement 
  submitted by Mr. DeLay.........................................   111
Article from the Washington Post, dated October 25, 2001, 
  ``Steamrolling the Superior Court,'' submitted by Mr. DeLay....   127
Copy of H.R. 2657................................................   128
Questions and responses to questions for the record from:
    Mr. DeLay....................................................   165
    Judge King...................................................   166
    Dr. Golden...................................................   171
    Ms. McKinney.................................................   174


  PROMOTING THE BEST INTERESTS OF CHILDREN: PROPOSALS TO ESTABLISH A 
        FAMILY COURT IN THE DISTRICT OF COLUMBIA SUPERIOR COURT

                              ----------                              


                       THURSDAY, OCTOBER 25, 2001

                                       U.S. Senate,
         Oversight of Government Management, Restructuring,
                 and the District of Columbia Subcommittee,
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:27 a.m., in 
room SC-6, United States Capitol, Hon. Richard J. Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Akaka, and Carper.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. I am going to go ahead and start, and thank 
you for joining us under these extraordinary circumstances.
    I am pleased to welcome you to today's hearing before the 
Senate Subcommittee on Oversight of Government Management, 
Restructuring, and the District of Columbia. Our hearing is 
going to focus on promoting the best interests of children and 
proposals to establish a family court in the District of 
Columbia Superior Court.
    There is legislation pending before this Subcommittee to 
restructure the D.C. Superior Court Family Division into a 
family court. Proponents of the measure, a House-passed bill, 
H.R. 2657, and a similar Senate bill, S. 1382, seek to address 
longstanding concerns about how child abuse and neglect cases 
are handled within the unique presidentially-appointed, 
federally-funded local judicial system and a social services 
system that only recently was returned to the control of the 
Mayor after an extensive and often controversial period under 
Federal court receivership.
    I commend the bills' sponsors for their commitment to the 
District's children. During the 106th Congress, I served as the 
ranking Democrat on both the authorizing and appropriating 
committees for the District of Columbia. In that capacity, far 
too many grim and gripping statistics crossed my desk.
    The annual Kids Count reports, produced by the Annie E. 
Casey Foundation in recent years, chronicle a tale of woe. Time 
and again, we find that children in the District of Columbia 
are faring worse than kids in virtually every city in the 
United States or any State in the Union. As beautiful as the 
District of Columbia may be and as inspiring as our monuments 
may be, there are endemic problems in this city relating to 
children which are horrible.
    The percentage of low-birth-weight babies in the District 
of Columbia ranks worst in the Nation, worse than any other 
State. The infant death rate in D.C. was the worst in the 
Nation, twice the national average. The child death rate, the 
rate of teen death by accident and homicide, the teen birth 
rate, the percent of teens not attending school and not 
working, the percent of children living with parents who do not 
have full-time, year-around employment, are in last place in 
the District of Columbia. The percent of children in poverty 
and the percent of families headed by a single parent are the 
worst in the country.
    Too frequently, these are the very children and parents who 
find themselves clutching the strands of the safety net that 
forms the child protection components of the social services 
system and the D.C. Superior Court.
    While Congress has an important responsibility when it 
comes to the District of Columbia and the local courts under 
the Home Rule Act, we need to make certain that we take 
prudent, measured steps to respond to these needs.
    Chief Judge King, joined by several of his associates, is 
here today. I want to commend the judge for the administrative 
reforms he has spearheaded and instituted already to address 
the challenges posed by dependent neglected and abused children 
who rely upon your leadership and reasoned decisions.
    Children removed from their biological parents because of 
abuse and neglect enter a child welfare system that is broken 
and needs to be fixed. Nationally, the number of children in 
foster care has nearly doubled in 15 years. At the same time, 
the number of potential foster families has declined.
    According to a September 2000 Brookings Institution 
Children's Roundtable paper, caseloads are large nationwide 
because of a short supply of trained child welfare workers, who 
are given insufficient resources to work with children whose 
needs are increasingly complex.
    In the District of Columbia, an estimated 4,500 child abuse 
and neglect cases are presently spread among the Superior 
Court's 59 trial judges. Concerns have been raised that many 
children remain in foster care longer than Federal law 
dictating permanent placement requires.
    The tragic story of Brianna Blackmond, the 2-year-old child 
who was beaten to death in January 2000, 2 weeks after being 
returned to her troubled home, prompted an outcry about the 
state of the District's delivery of child and family services. 
And, of course, this morning's Washington Post has another 
tragic story about a child who did not have a visit from a 
social worker for some 7 months and was malnourished and died 
as a result.
    An eye-opening Washington Post investigative series early 
last month revealed more distressing statistics: 229 children 
in the District died between 1993 and 2000, even though their 
family situation had been brought to the attention of the 
city's child protective services.
    Sadly, innocent lives snuffed out like Brianna's occur 
everywhere. These are urban tragedies and rural tragedies, and 
not just in the District of Columbia. In my home State of 
Illinois, the horrific hanging death of 3-year-old Joseph 
Wallace in 1993, after the system repeatedly returned him to 
his violent and mentally ill mother, was the catalyst that 
spurred revolutionary reform in Cook County's troubled child 
protection and legal system. No child's life should have to be 
sacrificed because the system established to protect them has 
failed.
    I have scheduled today's hearing to examine the components 
of the reform bills. These include, among other elements, 
placing all cases involving one family before one judge, 
assigning a cadre of magistrates to assist the judicial 
function, mandating minimum terms of service for judges on the 
family court, and transferring all child abuse and neglect 
cases now dispersed across the court back under a family court 
helm. The hearing will be an opportunity to hear from the 
witnesses and to understand their perspectives.
    I understand some of the details in the reform bills evoke 
legitimate disagreement among those tasked with implementing 
change. I also believe that everyone in this room is here for 
one purpose, and that is to find the best way to protect more 
children in the District of Columbia. I am hopeful that we will 
be able to reach some conclusions about that after hearing the 
testimony before us.
    I am happy to introduce and to welcome the comments of my 
colleagues who are here. Is it OK for Delegate Norton to go 
first?
    Ms. Norton. I would be pleased to have the Senator go 
first.
    Senator DeWine. No. Go right ahead.
    Senator Durbin. Excuse me. We are glad to have Senator 
Akaka here.
    Would you like to make an opening statement?
    Senator Akaka. Mine will be brief.
    Senator Durbin. OK.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for calling this hearing today. It is good to be here 
with our colleagues and our other distinguished witnesses who 
will share their views on establishing a family court within 
the D.C. Superior Court.
    The tragic death of young Brianna Blackmond, which prompted 
these legislative proposals, raised many concerns about the 
ability of the District's court system to handle the numerous 
child abuse and neglect matters that come before it everyday.
    However, the court is only one part of the equation. We 
must also improve the Child and Family Services Agency. CFSA 
was recently removed from Federal receivership, but the 
prognosis is poor. The systemic problems facing the agency are 
still present and without fundamental reform, the changes we 
discuss today will have little impact.
    How we protect neglected and abused children is a matter of 
concern to all jurisdictions. Hawaii, with one of the oldest 
unified family courts in the country, is looking into ways to 
streamline its court system. Proposals in my State are raising 
questions about the impact such changes may have on Hawaii's 
children.
    So you see, despite this morning's focus on the District of 
Columbia, the issues that we discuss today are relevant to all 
jurisdictions. My colleagues in both the Senate and the House 
are to be commended for their efforts to ensure that all 
children are safe and secure.
    I am also pleased that Judge King, the Chief Judge of the 
D.C. Superior Court, will have an opportunity to present the 
court's concerns. I understand the court's interest in having 
greater flexibility for its judges and magistrates, and 
revising the length of service, as proposed by the bills, is 
under discussion.
    I regret that I am unable, Mr. Chairman, to stay much 
longer at this morning's hearing. However, I want our 
distinguished witnesses to know of my interest and my desire to 
work with Chairman Durbin and Senator Thompson, the Ranking 
Member of the Governmental Affairs Committee, on these 
proposals. I commend all of you on your commitment to improving 
Washington's court system so we may better protect the 
District's children.
    Mr. Chairman, I ask unanimous consent that I be allowed to 
submit written questions for the record.
    Senator Durbin. Without objection.
    Senator Akaka. Thank you.
    Senator Durbin. Thank you very much.
    I want to thank my colleagues for being here and if there 
are any time problems--I know Senator Landrieu has one, so if 
it is OK for her to go first, then we will go through the 
others.

TESTIMONY OF HON. MARY L. LANDRIEU,\1\ A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman, and I do have a 
formal statement for the record that I will submit in just a 
few minutes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Landrieu appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Let me first thank you for calling this hearing and taking 
time, which is not easily found today, and a room to hold it. 
But, Mr. Chairman, you have managed to do both, to hold a 
hearing on this important bill, because it is something that my 
colleagues and I have worked on together very closely over the 
last several months, and maybe even longer, and in a bipartisan 
way.
    Let me thank you for your interest in children and your 
lifelong work, Mr. Chairman, as a person who has advocated for 
children, particularly children with special needs, not only in 
your own State but nationally. I thank again all of my 
colleagues, and the Superior Court for their excellent work in 
helping us negotiate some of the more difficult aspects of this 
bill, because it is not simple. If it were, we would have done 
it many years ago; every State in the Nation and city in the 
Nation would have done it.
    It is not rocket science, but it is complicated. There are 
many different agencies that have to be brought together to get 
to the end we want, which is protecting children, their lives, 
their well-being, and their right to a bright and successful 
future.
    I have enjoyed working with my Senate colleague, Senator 
DeWine, whom I always introduce, Mr. Chairman, as an expert on 
this subject, since he has eight children himself. That 
qualifies him, I think, above all of us.
    This bill is based, as you know, on a compelling need, and 
that compelling need is that there have been 200 children that 
have died since 1987 in the District of Columbia, under the 
care of the District Government that we help to fund, and we 
all have to take responsibility, to some degree, for that 
failure.
    But if you think about it, it is not just the 200 children 
that died; it is the hundreds of children who have been 
injured, in some places irreparably injured, physically, 
emotionally and mentally, and families that have been 
destroyed, with little hope of getting them back together and 
off on the right foot, because the system that we have created 
is simply not good enough. This bill is not going to be a magic 
solution, but it is a step toward laying a foundation for 
reforms that are essential, and so I am proud to work on it.
    The second point I want to make, is the answer what some 
critics of this effort have said, is this effort is not the 
first. As far as I know--and I think Representative DeLay and 
Delegate Norton, Senator DeWine, and I have tried to research 
as much as we can about what other jurisdictions are doing 
around the Nation, we are not trying to force the District to 
do something that other jurisdictions, Mr. Chairman, are not 
doing.
    This bill, as you know, is based on a lot of research about 
what is happening in other regions and in other jurisdictions. 
And while there is no magic or no set way that the court should 
operate, there are some principles that have been established, 
the principles about one family/one judge, one family/one 
caseworker, and judges wanting to do this kind of work, being 
excited about doing this kind of work, not being forced to do 
this kind of work because the system forces them.
    We want people who think it is a great privilege and honor 
to serve as judges and social workers for children who are born 
into the most difficult of circumstances and to help them get 
what should be promised to every human being, a decent chance 
at life. Too many of these children in the District, and in my 
State of Louisiana, may I say, do not have that chance. So that 
is what this bill represents, our best efforts to fulfill that 
promise.
    The final point is we have worked in a bipartisan, 
bicameral way. I think this is a great spirit and example given 
what we are all experiencing. It is this bipartisan way that we 
are going to work through not only the challenges that face our 
Nation, but moving an important bill for the District.
    Again, I just thank you and don't want to take any more 
time, but I am chairing a subcommittee hearing at 10 o'clock on 
emerging threats for Armed Services, and so I thank you for the 
courtesy, Mr. Chairman.
    This is my statement I would like to submit for the record.
    Senator Durbin. Without objection, it will be entered in 
the record.
    Senator Landrieu, thank you, not only for being here but 
for your commitment to children and families. In the time that 
you have served in the Senate, I think you have become a 
national voice on issues like adoption, and I think it tells 
all of us in this room where your heart is on this issue. Thank 
you so much.
    Senator DeWine, would you like to go ahead?
    Senator DeWine. I will yield to my colleagues.
    Senator Durbin. All right, fine.
    Delegate Norton, would you like to make a statement?

   TESTIMONY OF HON. ELEANOR HOLMES NORTON,\1\ A DELEGATE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. Let me thank 
you for your long-time interest in the District of Columbia and 
all you have done for the District of Columbia, always 
respecting home rule and our voting rights, but not hesitating 
to tell it like it is. It still is a work in progress.
---------------------------------------------------------------------------
    \1\ Prepared statement of Ms. Norton appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    I particularly appreciate this hearing at this moment. Mr. 
DeLay and I have been working in the House for months and our 
Senate partners have been working, as well. Indeed, we 
struggled to get this bill to the House floor before it was 
finished in order to take advantage of an appropriation that 
will make the reforms in this bill, will actualize the reforms 
in this bill. And I have to give the credit for that where it 
is due because Mr. DeLay not only has worked with me very 
collegially on this bill, but is totally responsible for the 
funds in this bill on the House side.
    Mr. Chairman, the Family Division of the Superior Court for 
years was criticized by the bar and the Council for Court 
Excellence for not incorporating the best practices. This 
process did not begin in earnest until a child died, Brianna 
Blackmond, and that got the attention not only of the court, 
finally, but it got the attention of the Congress as well.
    I regret that it is the Congress that has had to move on 
this matter, but the fact is that only the Congress can make 
adjustments in courts because that matter has not been 
committed to the District of Columbia Council and Mayor, who 
are, in fact, the experts on these matters. Indeed, I have a 
bill that would turn the courts over to the District of 
Columbia, just as most matters having to do with the District 
of Columbia are now in their hands.
    My testimony is going to be very brief. What our bill does 
is simply to incorporate the best practices from around the 
country and inset them into our own family court and Family 
Division. Mr. DeLay did his own investigation and I did mine. 
We got to the table together and lined them up and on virtually 
every matter got agreement.
    To give you an example, our court had no ongoing training. 
They got on the court and judges did the best they could, even 
though we are in a big city and they need somehow that kind of 
ongoing training. They had alternative dispute resolution 
everywhere but the Family Division. They had alternative 
dispute resolution to do corporate cases, but where you would 
most expect alternative dispute resolution is in family cases 
and there was hardly any effort in that regard. We are making 
that a part of what the court must do. Essential to us has been 
the notion of one family/one judge. A family comes in and they 
shouldn't have to go from one judge to the other, and there are 
a number of other best practice reforms.
    Finally, let me say that I believe that Judge King's 
testimony has a serious omission in it. It leaves the 
impression that there are outstanding matters that have not 
been resolved in the bill.
    I carried this bill to the floor in the House because the 
D.C. appropriation was going through and there were a few 
details that had not been worked out between the Senate and the 
House, such as the language concerning the Domestic Violence 
Unit, and such as keeping the court from being overwhelmed with 
a whole flurry of the cases now being transferred from 59 
judges to just a few judges.
    We agreed that in order to take advantage of the 
appropriation, we would go forward, and particularly since we 
had been receiving such good cooperation from the Senate that 
these and other details could be worked out. So I do want to 
assure you that I think that there are virtually no matters 
here that your staff and my staff have not been amicably 
discussing and that Mr. DeLay has not been discussing.
    I see no differences in this bill among all of the major 
actors, and I wish that Judge King's testimony, as a member of 
the bar, had, in fact, had the kind of candor that would have 
said these matters are pending and we have been assured by the 
Congresswoman on the floor of the House that they will be taken 
care of.
    This Member wants to let you know that I think anybody that 
submits testimony before Congress ought to be fully candid 
about the situation and should not leave the impression that 
there are outstanding issues that have not been resolved and 
have not been committed to be resolved.
    Finally, let me say there is a concern about funds. Mr. 
DeLay was able to get, we thought, about $40 million in the 
House. In the Senate, there might have been as much as $50 
million. Apparently, somebody from the Senate, a staffer, 
called the court and asked the court what could the court do if 
they got only $23 million. The court did not confer with me, 
with Mr. DeLay, or with anybody else, but simply sent forward a 
scenario of how they might handle $23 million.
    Now, the court will be back to me next year, I am sure, 
saying this is not enough money. All I can say to you is that 
money has now been divided up. It has undercut what Mr. DeLay 
has done, what the Senators had done, and there probably is not 
enough money in this bill for this reason, despite the best 
efforts of all of the principals concerned. Judge King, again, 
without consulting with all of us, has to take responsibility 
for that.
    I will say this finally to the Subcommittee, that we put a 
marker in the D.C. appropriation for $5 million because by 
allowing this money to go out of the bill, there is not even 
enough money to allow the computers in the District to talk to 
the computers in the court. So, minimally, we need $5 million 
more in order for the bill to work, or else D.C. is on one 
computer system, the court is on another, and all the work we 
have done will not matter.
    Again, I think any outstanding issues here, Mr. Chairman, 
are easily dealt with. I very much appreciate your taking the 
time to deal with a District of Columbia matter which I wish 
could be committed to the Council in the first place, but which 
I thank you and your staff for working on so hard with the 
staff of Mr. DeLay and with my staff in the House.
    Senator Durbin. Thank you very much, Delegate Norton.
    Congressman DeLay, welcome to the Senate side.

 TESTIMONY OF HON. TOM DeLAY,\1\ A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. DeLay. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, I really do, especially today after what 
has happened yesterday, losing another child in the child 
welfare system yesterday in the District of Columbia. It once 
again reminds us of how important it is to get this legislation 
out and start the work of putting together a child welfare 
system in the city that will keep children from being killed 
out there.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. DeLay appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    I can't say enough about how I appreciate your work, 
Senator DeWine's work, Senator Landrieu's work, and working 
with Congresswoman Norton. It has been really uplifting and we 
appreciate all that has been put together.
    I concur with everything Congresswoman Norton has said. I 
would like it if you would allow me to put some testimony in 
the record.
    Senator Durbin. Without objection.
    Mr. DeLay. One is from CRS on separation of powers issues 
on the D.C. family court.\2\ Another is testimony in the House 
by Judge Scott McCown, of Texas, about burn-out.\3\
---------------------------------------------------------------------------
    \2\ The information from CRS appears in the Appendix on page 106.
    \3\ Prepared statement of State District Judge Scott McCown of 
Texas submitted by Mr. DeLay appears in the Appendix on page 111.
---------------------------------------------------------------------------
    I also frankly would like, for full disclosure, to put in 
the editorial that just so happened to show up in the 
Washington Post today.\4\ I find this really reflects a display 
of the arrogance in the Superior Court and shows what we have 
had to deal with.
---------------------------------------------------------------------------
    \4\ The article from the Washington Post appears in the Appendix on 
page 127.
---------------------------------------------------------------------------
    This editorial is written straight from Judge King's 
testimony. No one on the editorial board called Ms. Norton or 
me to talk about these issues, undermining the effort that we 
have been doing, working so hard in a very bipartisan, 
bicameral way of doing something for the children and what is 
in the best interest of the children, not the Superior Court.
    That is what we have been dealing with now for months, 
trying to come to some sort of agreement here, and I think it 
is really unfortunate that some would put the fate of children 
behind their own interests.
    Mr. DeLay. It is clear to me, Mr. Chairman, that the 
Subcommittee is especially interested in three provisions of 
both the House and Senate bills: (1) one judge/one child; (2) a 
5-year term; and, (3) consolidation of all current cases within 
the family court system.
    Each provision is critical and indispensable to effective 
reform and let me explain why, but before I do let me tell you 
what some D.C. child advocates told me just last week when I 
brought them in. They wanted to come and see me and we talked 
about this issue. The people I met with work on the front 
lines, helping the District's abused and neglected children.
    They said children are burned, slashed, battered, 
terrorized and raped everyday in Washington, DC. They told me 
that they have wasted valuable time in courtrooms waiting for 
hearings that are ultimately canceled because a drug-addicted 
mother once again failed to show up. They described crying 
children who begged not to be returned ``to my mother, who 
hates me and beats me.''
    The child advocates pleaded with me to stand up for the 
reforms of the House bill. Without those reforms, they said the 
suffering simply will not stop. The rationale underlying these 
provisions is the main argument for the bill itself, to get 
someone to pay attention to the fear and suffering that young 
children endure in this District.
    As I listened to those advocates and read the series of 
articles in the Washington Post, it struck me that the terror 
and panic and feelings of helplessness that many Americans 
impacted by the September 11 terrorist attacks felt are similar 
to what abused children suffer.
    The war on terrorism may take years, but Congress can ease 
the suffering of abused D.C. children now by passing the 
District of Columbia Family Court Act to focus judicial 
attention on these children and their families. Both the House 
and the Senate bills are designed to make children's safety, 
well-being and permanency the paramount concerns of the family 
court.
    Legal experts and organizations like the ABA support one 
judge/one child, but judges here in the Superior Court resist 
it. I find that amazing. The one judge/one child family concept 
requires that all the hearings for a particular child and 
family be before the same judge, and this reform will end the 
practice of shuttling a child from courtroom to courtroom, 
hearing to hearing, and judge to judge. This current practice 
scatters a child's paperwork all over the courthouse and forces 
judges and social workers to make decisions with only half the 
child's story.
    The deadly mistakes that killed Brianna Blackmond, Nicki 
Colma Spriggs, Devonta Young, and many other District children 
happened because the system only knew half their stories. We 
must put together all the pieces of a child's life before we 
determine whether it is safe for a child to go home, remain in 
a particular foster home or facility, or be placed for 
adoption. A child is safer when a judge understands the whole 
story of his or her life. Multiple judges increase the chances 
of error and vital information not being considered.
    The mandate that new judges sit on family court for a 
minimum of 5 years is designed and was established to ensure 
that only committed judges would volunteer for the family 
court. The 5-year requirement for new judges and the 3-year 
mandate for current judges overseeing abused and neglected 
children of the District is a test. The terms will ensure 
judges volunteering for family court service are dedicated to 
the children and families on their dockets.
    The statement that there is burn-out is an insult to family 
court judges all over this Nation. Five-year terms will sort 
judges who are committed and those who are just marking time. 
The 5-year commitment will weed out all those lawyers who want 
to be a Superior Court Judge and calculate that sitting on 
family court for 3 years is the price that they must pay for an 
appointment to the bench.
    Reform of the court system won't happen without committed 
judges to children. The Superior Court's resistance to this 
provision shows me in no uncertain terms that the provision is 
indeed a true test of commitment. The fact that so many judges 
currently on the bench are unwilling to make this commitment 
speaks volumes about the willingness of the current bench to 
accept real reforms in the Superior Court.
    The current family system doesn't comply with either the 
Federal or District Adoption and Safe Families Act and those 
time lines that require that permanency hearings be held within 
12 months. I just believe that dispersing 4,500 cases over 59 
judges increases the likelihood that deadlines will be missed 
as judges try to work abused children onto other dockets. 
Judges outside the Family Division don't have current knowledge 
about the availability and quality of placement, or service 
options or new laws and new regulations impacting the children 
before them.
    House testimony convinced us that children's interests 
simply are not served when judges take cases with them. This 
practice only creates discontinuity and a lack of consistency 
for the child, for the families, for social workers, and for 
the attorneys from the Office of Corporation Counsel as well.
    Mr. Chairman, I just believe that the best thing we could 
do for abused children right now in the District is to return 
all the cases to a family court, made up of committed judges 
who are all volunteers wanting to serve on those family courts. 
Only their specialized knowledge of relevant Federal and 
District laws will result in better decisions for abused 
children.
    So, Senators, it is time to move the D.C. Family Court Act. 
We appreciate all the hard work that you are doing on this. We 
hope you will move it quickly. The children are waiting. We 
must not disappoint them. Thank you.
    Senator Durbin. Thank you, Congressman DeLay.
    I am going to recognize Senator DeWine, but before I do, I 
don't know what your time situation is, but if it is possible 
for you to wait a few moments, I would like to ask specific 
questions raised by the Washington Post editorial, as well as 
one or two others on my mind, of the sponsors of the bill.
    Mr. DeLay. Sure.
    Senator Durbin. Senator DeWine.

TESTIMONY OF HON. MIKE DeWINE,\1\ A U.S. SENATOR FROM THE STATE 
                            OF OHIO

    Senator DeWine. Mr. Chairman, let me just thank you for 
holding this hearing on this very, very important issue. It is 
a bipartisan bill we are talking about, and certainly a 
bipartisan issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator DeWine appears in the 
Appendix on page 56.
---------------------------------------------------------------------------
    I want to thank Delegate Eleanor Holmes Norton. She has 
just gone out of her way to work on this bill, and spent hours 
and hours and hours on the bill. I deeply appreciate it, and 
the children of the District do, as well. Congressman DeLay has 
been the driving intellectual force behind this. Senator 
Landrieu has been steady all the way through this, and so it 
truly is a bipartisan effort.
    We have done a great deal of listening. We have had a 
number of meetings with the judges. We have taken a lot of 
their concerns, I believe, into consideration. But quite 
candidly, Mr. Chairman, the time for listening is over. We 
need, as a Congress, to act, and we need to act as a Congress 
for these children.
    We have a crisis, and you have very ably pointed that out 
in your reference to the original Washington Post article and 
the Washington Post article this morning. The tragedies go on 
and on and on. Despite all the good intentions of all the good 
people who are trying to help children in the District of 
Columbia, the sad truth is that our Nation's Capital has a 
child welfare system that is an absolute mess. We have some 
responsibility, I believe, to act to try to change that.
    Under our current system, judges don't get the training and 
they don't get the technical support nor the experience that 
they need to properly handle these cases. As you have pointed 
out, the recent Washington Post series on the District's lost 
children made this all too clear. These stories outline 
multiple mistakes that the District Government has made by 
placing children in unsafe homes or institutions.
    Since 1993, over 180 children have died in the D.C. foster 
care system, and at least 40 of those deaths are the direct 
result of the government worker's failure to take preventative 
actions or by placing children in unsafe homes or institutions.
    I believe that our family court bill is a step in the right 
direction and that it will help ensure that children who come 
into contact with the District's child welfare system are 
placed in a safe and stable environment. At the heart of the 
bill is the one judge/one family concept which is designed to 
create judicial continuity so that families aren't shuffled 
from one judge to another.
    There is something to be said in both legislative bodies 
and in the judiciary for institutional memory, and there is no 
time where institutional memory is more important than memory 
having to do with a family. To shift children and to shift 
families around is to lose that institutional memory, and I 
think more mistakes are made when that happens. The simple fact 
is that the judge who knows the entire history of the family 
can better protect the interests of the children and the 
parents involved.
    Second, our bill ensures that the judges in the family 
court get specialized training in family law and have terms 
long enough to allow them to get the experience they need to 
properly deal with these cases. I will talk about that issue in 
a moment.
    Third, our bill helps make sure that the courts in the 
District comply with the permanency time lines outlined in our 
1997 Federal law which I think all of us, from the Chairman to 
our colleagues, were very much involved in writing and getting 
passed. This was the Adoption and Safe Families Act (ASFA).
    The reality, Mr. Chairman, is that family and juvenile 
courts across the country have implemented this law. Yet, the 
District of Columbia, our Nation's Capital, still only has a 
plan to implement it. The time for compliance with the 
regulations has long since past. The District needs to act, and 
act now.
    Let me address, if I could, Mr. Chairman, one of the 
concerns that has been raised by the judges, and I will 
guarantee you that this is an issue that we have discussed with 
the judges on numerous occasions.
    I believe, as my colleagues believe, that it is essential 
for the judges to have interest and experience in the practice 
of this type of law. That is one of the reasons why 
jurisdictions across this country--there are thousands and 
thousands of local jurisdictions that have family courts.
    The judges make the case that they have a hard time finding 
anyone to take this position. I simply refuse to believe that. 
I refuse to believe that in the District of Columbia, of all 
the lawyers and all the well-trained people, there aren't a few 
good people who care deeply about children and who want to make 
this a career, or at least a significant part of their career, 
or at least commit to 5 years to do this.
    To say that this can't be done says that the District of 
Columbia is different than every other jurisdiction or 
thousands of jurisdictions across this country. In my home 
county, Greene County, a small county, we have a judge who is 
elected. His primary responsibility is to do this type of case. 
We don't seem to have any trouble finding people in a county of 
130,000 who want that job. I don't think we have found that is 
a problem across the country. To say that we can only get 
people who can serve for 2 years and maybe 3 years just flies 
in the face, I think, of logic and it flies in the face of 
experience.
    Mr. Chairman, we need judges committed to children, and I 
refuse to believe that we can't find lawyers in the District of 
Columbia willing to sit on the family court for more than a 
year or two. The family court should not be a stepping stone to 
anything but a quality life for children. It is not a stepping 
stone to the Federal bench. It is not a stepping stone to a 
nice job in the U.S. Attorney's office. This is about children 
and their lives, and what can be more important than that?
    Mr. Chairman, I do have a written statement and I will 
submit that for the record, if I could.
    Senator Durbin. Without objection, it will be made part of 
the record.
    I thank the three of you for remaining for some questions 
to help me understand better what you are seeking to achieve 
here.
    Assuming for a second that we all agree on the concept of 
one judge/one family/one child, your proposal to move the 
current caseload to new magistrates will take it away from some 
judges who have had these cases for a period of time who are 
familiar with the families and children, will it not?
    Ms. Norton. If I could answer that, the proposal is not to 
take all of the family--the family court has divorce cases, it 
has juvenile cases.
    Senator Durbin. Child support.
    Ms. Norton. Child support cases, and it is nonsense for 
this Subcommittee to have before it testimony that would imply 
that we would move all of those at one time and take a court 
that already handles cases for abused and neglected children, 
who are our concern, too slowly and overwhelm it with cases of 
every kind. The court did not even have a good fix on the 
number of cases in the entire Family Division.
    Senator Durbin. Specifically, let me ask you this: If there 
are 4,600 estimated abuse and neglect cases pending before the 
D.C. court, would your bill require that some of the abuse and 
neglect cases currently assigned to other judges be removed to 
a new magistrate or judge?
    Ms. Norton. We anticipate a timetable of at least 18 
months, and we are still working with the Senate on a timetable 
for how these cases will move out. That is one of the 
unresolved parts of the bill because we have not had an 
opportunity to work this out with people in the Senate.
    You certainly have my assurance, and nothing Mr. DeLay has 
ever said to me would imply that we are so foolish or stupid as 
to simply say take the cases that you have now and plop them 
from the inefficiency that you have now into an even smaller 
bank of judges who would make them even more inefficient.
    Senator Durbin. So you would agree that there would be some 
transition here, at least of the 4,600 cases that are involved?
    Mr. DeLay. There has to be. Actually, even in the bill 
itself, Mr. Chairman, it has a transition in terms of 3 years, 
5 years. We are asking those judges that are currently sitting 
on family court matters to serve 3 years. I think you know that 
the current system is so broken down because it is the wrong 
system.
    In order to advance in the Superior Court system, you are 
designated to serve in family court cases for 9 months. That is 
the penalty that you have to pay to do anything else on the 
court. That is a horrible system that is doomed to failure.
    What we are saying is those that are there now transition 
through. We are asking them to serve 3 years so there is some 
consistency and continuity, but any new judges that come in 
would serve 5 years. Of course, there is going to be a 
transition.
    Senator DeWine. Mr. Chairman.
    Senator Durbin. Go ahead, Senator.
    Senator DeWine. I think you bring up a very good point, and 
that is I think it is clear what we want to do in regard to 
where we want to be 5 years or 10 years from now. The devil is 
in the details, particularly in the transition. We provide for 
18 months, the way the bill is written now, for a systematic 
transition, but I think most of us are open to work with you to 
work out whatever transition works, along with the judges.
    If I could make a comment about the magistrates, I had a 
lot of questions about the issue of magistrates because one of 
my models is a county in Ohio, Cincinnati's county, Hamilton 
County, Ohio. They have a system that is somewhat unique where 
they have one or two judges and they have a large number of 
magistrates in the whole family court area.
    I believe after looking at this that the key, Mr. Chairman, 
is not the ratio of magistrates to judges. I think the key is 
that the magistrates and the judges all within the division 
specialize in family court issues. A magistrate, quite 
bluntly--I hope I don't offend the judges--can be just as well-
trained and have just as much experience, and sometimes more, 
than the presiding judge. The key is that we have an 
independent, impartial, well-trained, experienced person who is 
looking at this child. I think that is the key.
    Senator Durbin. I mentioned in my opening statement that in 
1993 there was an innocent little boy named Joseph Wallace, a 
3-year-old who was killed by hanging after being repeatedly 
returned to a mentally ill parent in Chicago which sparked a 
reform movement there.
    Just for the record, I want you to hear these statistics. 
Chicago is roughly five times the size of D.C.'s population. At 
that time, in 1994, they had 41,000 pending cases of abuse and 
neglect, and there were 16,500 new cases every year. So it was 
a huge caseload they were dealing with.
    They went into a reform mode after that and said we have 
got to change this system, and it took them 6 years to make the 
ultimate transformation to what I am about to report today. 
They are now down to 16,000 cases pending of abuse and neglect, 
after significant reform. Foster care has been reduced from 7 
years to less than 4 years. So they have really made a combined 
effort not only in the courts, but also with assistance to the 
court, which is my next question.
    We are going to hear testimony later on from Judge King 
about the number of cases per social worker in the District of 
Columbia, which I understand from his testimony is about 100 
cases per social worker. The recommended number is one-fourth 
that, some 25.
    What does your bill do to provide the obvious need for 
support services for the courts and for the families?
    Ms. Norton. The child services agency is not before this 
body. The District of Columbia itself has just gotten 
jurisdiction over the child services agency, which had been 
under the jurisdiction of the Federal courts. It was when the 
agency was under the jurisdiction of the Federal courts that 
Brianna Blackmond died. That made the court look closely at the 
receivership, and it decided that the Mayor of the District of 
Columbia was doing a better job with agency than the 
receivership had been doing with the agency.
    They have had the agency since only June, and the Council, 
in response to the movement of the agency from the court back 
to the Council, has appropriated significantly more money for 
the agency, including social workers.
    To be candid, the great problem with social workers is the 
turnover in social workers. This is a profession that is not 
drawing people any longer. They come and they see this very 
difficult caseload and they leave. So the District of Columbia, 
you are absolutely right, Mr. Chairman, has a huge problem 
here, but a problem that is not the court's problem, but the 
problem of the agency itself, under the jurisdiction now of the 
District of Columbia
    Senator DeWine. Mr. Chairman, again, you point out very 
correctly there are two sides to this problem, fixing one 
doesn't solve the whole problem unless you fix the other 
problem.
    Now, we have a division, I think, of responsibility. We 
have, according to the 1997 bill, a lot more responsibility in 
the area of courts. What we try to do with this bill is to 
begin to fix the court system. Senator Landrieu and I, through 
the appropriations process and the District of Columbia bill 
which we hope to get on the floor shortly, as you know, have 
added an additional $35 million basically, as my colleagues 
point out, to implement the reforms contained in this bill. So 
I think the Congress is moving on the court side.
    The District has taken over, as my colleague has pointed 
out, the other side, and I think frankly that in the future, as 
a matter of public policy, we may have to help on the other 
side even more than we are doing today.
    Senator Durbin. If I could just ask one question, and then, 
of course, Congressman DeLay.
    So with the D.C. appropriations bill that you and Senator 
Landrieu are working on, what do you believe will be the 
caseload that these caseworkers will be shouldering?
    Senator DeWine. Our bill and this bill are not directed at 
that side of it as much as we are at trying to get the courts 
fixed.
    Mr. DeLay. Mr. Chairman, my wife and I have been involved 
in this for a very long time, many years, and have been foster 
parents. We are in the process of building a community to give 
kids like these a safe, permanent home. We have traveled all 
over the country looking at different models of how things are 
done in this regard.
    I truly think that some in this fight, in trying to shift 
the blame or trying to avoid being blamed, are always pointing 
the finger at somebody else here in the District. The 
leadership that the Mayor and Ms. Norton have shown inside the 
District is astounding on this issue.
    The District needs to fix its own system. We have 
jurisdiction over the court; we fix the court. But I have been 
working with Ms. Norton and the Mayor and others, the whole 
community of child welfare, to fix the system. It was terribly 
broken, it was terribly designed. It was designed not with kids 
in mind, but turf in mind.
    Let me give you one quick example. They split up abused and 
neglected; the police got the abused and the child welfare 
system got the neglected. Most of these kids are both; if you 
are abused, you are neglected. No system splits them apart, and 
nobody was talking to each other. This is an example of not 
falling through the little cracks as these kids were being 
thrown in the crevices that were so big in the system.
    The CASA program here is not what it should be. The child 
advocates program here is not what it should be. This community 
is not supporting the child welfare system with donations and 
volunteers like it should be. So we are all trying to work 
together to redesign all of this system.
    The Mayor has sent his people over the country to look at 
models of what needs to be done, but in my mind it all starts 
with the court. I am not a lawyer, but I do know where it 
starts. The responsibility of the court taking a child away 
from a family takes on a huge responsibility. It doesn't just 
stop at the bench. Most family court judges don't just rule and 
that is the end of that case. They look into the cases, they 
follow the cases. They are really tough on the social workers. 
They are involved in the community, and that is what we are 
trying to change.
    Senator Durbin. Congressman DeLay, I think most of us have 
made reference to this morning's newspaper story, but this 
story relates to at least some nonfeasance, let's say, by the 
social worker who didn't visit the family for 7 months.
    Mr. DeLay. Right.
    Senator Durbin. So if we are talking about the interests of 
the children and focusing on judges, the point I am raising is 
should we not also be focusing on caseloads for social workers.
    Mr. DeLay. Certainly.
    Senator Durbin. So if this is going to be truly oriented 
toward the child's best interest, we have to do both. Doing one 
without the other still leaves a very serious problem in the 
system, and even the best efforts of the best judge or 
magistrate could really result in this dereliction of duty. 
That is why I am raising this to say that if this is a true 
reform, then you cannot ignore those two elements, at least 
those two, if not more.
    Senator DeWine. Mr. Chairman, could I just make a comment?
    Senator Durbin. Sure, go ahead.
    Senator DeWine. Ultimately, though, you have to get back to 
the issue of who is responsible. There are two issues with the 
point that you just made, it seems to me, with caseworkers. One 
is they probably have to have more resources, more money. The 
second is it is a question of who ultimately is responsible 
with the District taking this back over.
    That is why I said a minute ago this bill does not deal 
with that side of it. Our appropriation of $35 million really 
doesn't deal with that side of it. It is one side of the 
problem that we have to fix. We have the ultimate 
responsibility to fix this side.
    I also believe that as a matter of public policy in the 
future, we are probably going to have to look at trying to fix 
the other side of that. To allow this to continue in our 
Nation's Capital is wrong; it is a crime. We should not allow 
it to happen. But based on the 1997 law, we have the 
responsibility, or a lot of the responsibility on this side and 
we are not in any position to point fingers and say that the 
case work isn't being done, when the side that we have some 
responsibility for as far as the judges is in such a mess. That 
is all we are trying to do with this bill.
    Senator Durbin. Let me ask you about this burn-out 
question. I want to put something on the record here. 
Congresswoman Norton has made this point earlier about social 
workers that because of the volume of work that they have and 
the nature of the work, there is a high turnover.
    It has been my experience as a practicing attorney many, 
many years ago that there were people who were really committed 
to this type of practice at all levels, from judges on down to 
advocates and attorneys who really worked it hard, and some of 
them were just extraordinary people.
    I think that this is a very difficult part of legal 
practice because it emotionally can tear you to pieces on a 
day-to-day basis when you see the terrible things that are 
happening among people, and certainly to children. And I guess 
the question I ask you on this burn-out question is can we 
really find this supply, this inventory of attorneys coming out 
of law school or those who have been in practice for a while 
who are prepared to make a dedication to this a major part of 
their lives, 5 years. In Cook County, the reform has resulted 
in terms of service of 2 years in the family court.
    Now, I am just asking you that in an open-ended way and I 
am not sure any of us can really answer it. We would hope, for 
goodness sake, that there is an abundance of people who would 
want to step in and do this. But I will tell you I found my 
family practice as a lawyer to be the toughest practice I had, 
not in terms of hours but in terms of bringing home my problems 
and worrying about them at night and wondering if I was doing 
the right thing for the families involved here.
    I can understand that every attorney may not want to become 
a judge in this practice, nor should they be, while others can 
make a lifetime commitment to it and do a marvelous job. So 
tell me about the 5-year commitment and your thoughts on the 
burn-out question.
    Ms. Norton. Mr. Chairman, I would like to speak to that 
because I think this is the only point of real difference 
between my two colleagues--you have heard them both talk about 
5 years here--and me. The rest of this is what we have really 
all agreed upon, and even this I think we can come to some 
understanding on.
    We came to the conclusion that our court should remain an 
integrated court, a court part of a larger court, and we came 
to that conclusion based on the evidence. We had a juvenile 
court here, we had a family court here. It was a disaster. In 
fact, the court was upgraded and made a part of our integrated 
court, and the court itself improved vastly when it became an 
integrated part of the court. It improved in its prestige, it 
improved in the way it was received by the bar.
    The court doesn't have a lot of credibility before the 
Subcommittee, and so when the court said it wanted 3 years, the 
Subcommittee was skeptical. They were skeptical because the 
court had to be dragged kicking and screaming by the bar and by 
the Council for Court Excellence to the point where it would 
make these reforms itself. Had the court moved ahead in the way 
the bar and the Council for Court Excellence had said years 
ago, we wouldn't have even needed to do this. So I came to this 
with absolutely no sense of whether it should be 3 years, 4 
years, 5 years, or 10 years.
    Mr. DeLay is not a lawyer, but he feels strongly that if 
anything is there for children, it ought to be there for 
children, and if you are a judge, by golly, you ought to be 
there for children for as long as it takes. Well, I am a member 
of the bar and have some familiarity, though not a lot, with 
family law. Recognizing that this was part of an integrated 
court, I then sent my staff to find out the state of the art.
    I was satisfied that if we had 3 years--understand, I 
didn't come with the court's imprimatur here because I have 
skepticism about the court, too. But the court now has 1 year, 
so it seemed to me that if you now have triple that, you are 
getting a genuine commitment and you are getting people who are 
saying, I feel deeply about children; I may not want to spend 
the rest of my life dealing with the hardest problems in the 
District of Columbia, which are parents and children caught in 
the deepest social problems, but I think I owe an obligation to 
spend 3 years of my life.
    So I believe that that was an appropriate compromise. Our 
bill has another kind of compromise in it because Mr. DeLay and 
I, when we reached this disagreement, cut the baby in half and 
we came to a compromise. But I want you to know this was a 
disagreement we had, but it is a disagreement based on our 
sense of what would be best for the court. It is not a 
disagreement that is rooted in any principle that any of us 
could say must be. I respect the difference we have here.
    The one difference I would have with my good friend and 
partner, Tom DeLay, is I don't think it is an insult for a 
judge to say this is very difficult. This is what I would 
envision: I would envision that a judge would, in fact, want to 
do this. We do have volunteers in this, but they would say, if 
I could have a year in the Superior Court, to give some greater 
variety in my life I would come back and do this because I 
think the most important thing to do in the District of 
Columbia is to deal with these children.
    So I would like that judge to be able at the end of 3 years 
to say, OK, I am going to do something else, but I will be back 
because this is where my commitment in life is. So I accept 
that because there are so many integrated courts around the 
country that have 3 years or less that that was good. I was 
willing to reach a compromise, which is neither 3 nor 5 years, 
as you will see in our bill, if that is all we can get. This is 
the honest-to-God truth of how we got to where we are.
    Mr. DeLay. Mr. Chairman, I have got to tell you, children 
in this District remain an average 4 years in foster care. They 
don't have the luxury of burn-out, and I don't think it is 
tough to ask a judge to serve the length of time that the kids 
are in foster care.
    For someone to claim that they don't want a system that 
makes a judge serve 5 years because of burn-out is an attitude 
that doesn't care about the kids. They care about their own 
careers and their own judges. I refer to Judge McCown's 
testimony on this very subject, and he has 13 years as a family 
court judge in Austin, Texas.
    Burn-out happens for many reasons, but it usually happens 
with ``I didn't want to do this in the first place and now I 
wish I was out of it.'' Whether it is a judge or the social 
workers or the volunteers that hear these cases everyday and 
deal with these poor kids everyday, do you know what keeps them 
going? It is success. That is what keeps them going.
    Senator Durbin. Congressman DeLay, let me ask you this: 
Isn't it also possible that burn-out is not a reflection of not 
caring about the kids, but in some cases caring too much about 
them? Getting emotionally committed and feeling the pain of 
what is happening in your courtroom has got to take an 
emotional and physical toll.
    I once asked a young woman who worked in a hospice, I said 
this must be a very sad job. No, she said, it is not, it is a 
very hopeful and happy job. People know what is coming and they 
are making plans. She said, I had a sad job. And I said what 
was that? She said, I was on a hotline for child abuse and 
neglect. She said, I couldn't take it, after a while I just 
couldn't take it. Now, here was a loving, caring social worker 
who went into a hospice, but it just tore her to pieces every 
single day to pick up that phone line and to hear those cases, 
one after another.
    So I am not going to argue that there aren't some who would 
look at this as an assignment with no future, but there are 
some who would look at this as an assignment where they just 
frankly cannot handle the burden that comes to them every 
single day. I hope we can allow for both possibilities as we 
discuss this reform.
    I don't speak to it because I didn't practice in this area 
but just a little bit, but it struck me that there were people 
that had no business being there in the first place and others 
who were really carrying a heavy burden from this.
    Senator DeWine. Mr. Chairman, you make some very valid 
points, and I think everyone brings to this their own 
experience. In my home State of Ohio, we elect judges for 6 
years and so there are many, many judges who run, make the 
decision to run for a position in family court or domestic 
relations, whatever it is called locally, and they know they 
are going to be there 6 years. So I don't think it is 
extraordinary to think that we are going to find people to 
serve this period of time.
    I think the other message we are trying to send is that we 
don't want this looked at as a stepping stone to anything else. 
There are some things that are unique about this court and 
where it sits, and this court has been looked at sometimes as a 
stepping stone to something else. You go and do your job here 
and you are going to be in the U.S. Attorney's office or you 
will be appointed to the Federal bench or something else.
    I think the message we are trying to send is there is 
nothing more important than our kids and we want people who 
want to do this. Yes, maybe after they serve their term, they 
will do something else, but we want them for the term to be 
focused on children.
    There is, I think, a learning curve. I don't know where 
that is, and I think in every job it is probably different and 
maybe for every individual it is different. Just as teachers 
tell us that it takes about 5 years before the teacher really 
hits his or her stride--and I think we can relate to that in 
the U.S. Senate or the House of Representatives.
    Senator Durbin. There is a different learning curve, 
incidentally, in the Senate and the House. [Laughter.]
    Senator DeWine. Well, I am sure it is different. It gets 
higher or lower; I don't know which.
    I think that 5 years is not an unreasonable period of time. 
Is it the magic time? I mean, 6 years, 7 years, 4 years--who 
knows? I don't think any of us knows for sure. I just think 5 
years is a reasonable period of time.
    Mr. DeLay. Mr. Chairman, I wanted to finish my statement 
with reading from Judge McCown. I think he puts it very well in 
his testimony. ``The cause of judicial burn-out is not the 
number or difficulty of the cases. The cause of judicial burn-
out is failure at one's work, a feeling of hopelessness about 
the task. A committed judge with training and experience who 
sits in a specialized family court doing good work draws deep 
satisfaction from helping children and families. While such a 
judge may eventually tire and seek a new assignment, the judge 
is not likely to do so in a mere 5 years.''
    My point is that if you spend any time in this child 
welfare community at all, you will find people who deal with 
failure after failure after failure, but they get that one kid 
that is a success and that makes all the failures worthwhile.
    I mean, these are kids that have terrible issues that they 
have to deal with. I don't know what it is in the District of 
Columbia, but 93 percent of the violent criminals in Texas 
prisons were abused and neglected children. But there are a lot 
of successes out there that you could point to of wonderful 
foster kids that dealt with their problems and moved on to be 
productive citizens.
    Senator Durbin. I will ask one last question and then I 
will go to my colleague, Senator Carper, who I am glad has 
joined us here.
    The other element that was raised in this Washington Post 
article and has been raised by others was the bill's 
elimination of the court's Domestic Violence Unit. Can you tell 
me why you eliminated it?
    Ms. Norton. It is a non-issue. It wasn't eliminated. It is 
a question of language. Domestic violence is one of the great 
all-time bipartisan issues in the House of Representatives and 
the Senate. There was a good-faith effort on the part of the 
staff to put language in that preserved the Unit, while making 
sure that the cases all came into the one family/one judge. It 
is a technical question of language. It is not even worth your 
time.
    Senator Durbin. So you want the Domestic Violence Unit?
    Ms. Norton. Mr. DeLay and I are fully committed, and always 
have been. It has never been an issue.
    Mr. DeLay. It never was.
    Senator Durbin. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, whenever I see Representative 
Norton and Representative DeLay sitting together at a table and 
favoring the same cause, I pause. [Laughter.]
    Senator Carper. This is a day to remember.
    Mike DeWine and I came here together in 1982, so we are 
colleagues of long-standing. Thank you for coming.
    As a former governor whose job included appointing judges 
to all the State courts in Delaware for the last 8 years, I 
wouldn't like the idea of the Federal Government coming in and 
telling us how to run our court system--and we don't have 
elected judges; we have judges appointed by the governor for 
12-years terms, including for the family court. But my State 
would not have taken well to the notion of the Federal 
Government coming in and attempting to micromanage State 
courts.
    I have actually heard from some folks in the legal 
community in my State who have encouraged me to oppose this 
legislation. I have not talked with the Chairman about the 
legislation.
    But let me ask Representative Norton this: Would you like 
to be called ``Representative'' or ``Congresswoman'' or 
``Delegate?''
    Ms. Norton. I think that technically I could be called 
``Delegate'' and ``Congresswoman,'' so obviously I would choose 
``Congresswoman.'' [Laughter.]
    Senator Carper. Congresswoman Norton, just talk to us a 
little bit about the notion of the Federal Government coming in 
and micromanaging to this extent the nature and constitution of 
your court.
    Ms. Norton. It is an interesting you raise this, Senator. I 
opened my testimony by trying to make sure everybody understood 
they weren't having an out-of-body experience, because the 
Senate is, of course, accustomed to our appropriations, and 
explained that while the Council and the Mayor are by far the 
most competent people to do anything about children and family 
and courts in the District of Columbia, when the Home Rule Act 
was passed in 1973, for reasons that escaped me courts were 
left under the jurisdiction of the Congress and not put under 
the jurisdiction of the D.C. Government. Almost everything else 
was.
    Interestingly, the Council has just had a hearing in which 
it is asking that the courts be returned to the District of 
Columbia. Mr. DeLay, I must say, has respected home rule fully, 
but he and I had to act, and you have had to act because the 
District of Columbia is not empowered to act on its own courts.
    Mr. DeLay. The court is totally paid for by the Federal 
Government and is under the jurisdiction of Congress.
    Ms. Norton. Interestingly, the Council said it was willing 
to pay for its own courts, even though you don't have a lot to 
say about courts except to appoint the judges.
    We are for an appointive system the way you had in 
Delaware, so the Council wouldn't even have a lot to do with 
it. The Mayor would do the appointments. But they said, we know 
if we get them, we are going to have to pay for them, and they 
thought they had the money to pay for them.
    Senator Carper. Just so it is clear, currently the way the 
system works is the President nominates and the Senate confirms 
judicial appointments to the Superior Court?
    Ms. Norton. Yes.
    Senator Carper. And there are about five divisions in the 
Superior Court, is that correct?
    Ms. Norton. Yes.
    Senator Carper. Just help me understand the legislation. 
How would that change under this legislation?
    Ms. Norton. The matter you have just raised is not touched 
by this legislation. I will be introducing a bill in the next 
term that would transfer the courts to the District of Columbia 
and then we wouldn't be bothered with this matter at all.
    Mr. DeLay. I want to make sure you understand what we are 
doing with this legislation, creating a different pool of 
judges dedicated to a family court in a different way than 
previously organized in the court. So we have brought reforms 
to the table that the child welfare community, as well as those 
of us who work in this area, understand are needed by the 
Superior Court. And I have to say that the Superior Court 
judges have resisted it every step of the way.
    Ms. Norton. I ought to say for the record that I asked the 
Council to look at the bill, the Mayor to look at the bill. The 
Council passed a resolution endorsing the bill. Now, some of 
those things like the Domestic Violence Unit still have some 
technical problems in language, but they have endorsed this 
bill. So this bill has the home rule imprimatur of the District 
of Columbia.
    Senator Carper. When you hear people speak against the 
legislation, just share with us what you think may be the most 
valid criticisms of the legislation.
    Mr. DeLay. I didn't go to law school. I wasn't trained to 
do that.
    Ms. Norton. I think you will hear in Judge King's testimony 
some criticisms of the legislation. My point of difference with 
him is he knows or should have known that virtually everything 
in his testimony is now in negotiation with the Senate, because 
on the floor of the House I indicated that and my staff has 
indicated that to him.
    Some have said he doesn't want any legislation at all. 
Others have said that the basic difference is that the judges 
want--``we now only have 1 year to serve, we would rather have 
3 years,'' which is what I initially have supported, and 
certainly not 5 years, which is what Mr. DeLay supported. And 
now we have a kind of hybrid in there to reflect this 
difference.
    But beyond that, it would be hard to find a criticism of 
one family/one judge. More money for this court, money that the 
Senate and the House were willing to give beyond what is now in 
the bill, but the court came forward with the scenario that 
they got most of the rest of the money redistributed in other 
ways.
    So I am going to leave my staff here to hear what 
criticisms there are of the bill, especially since the bill has 
been endorsed by the Mayor and the City Council, although they 
did endorse three judges and not the amalgam we now have in the 
bill.
    Mr. DeLay. I can't answer your question because I think 
their criticisms are all bogus. It blows me away, the kind of 
criticisms they are making to protect their own little turf, 
and that has been the biggest problem we have had.
    What this bill represents is best practices, from the ABA, 
from all the organizations. This is what people do all around 
the country. This is what this reform is. We came together with 
5 years as a compromise, but I started with a new family court. 
I wanted a new family court, separate from the practices of 
this Superior Court, designed like those best practices around 
the country and how they do it well.
    Because of criticism from the judges, we have worked our 
way down all the way to the 3- and 5-year solution. That is a 
compromised compromise. I have served with both of you in the 
House and you know how difficult it is for me to compromise. 
[Laughter.]
    Senator DeWine. If I could just make one comment, you 
weren't here when I made it before, but I do want to repeat it, 
and that is despite what may appear to be differences and what 
are differences, this bill is a product of a lot of compromise 
at this point.
    This is not a bill that was thrown together by the three of 
us. Each one of us has spent a lot of time talking with the 
judges, and this is a bill that probably, if each one of us was 
drafting it--it is very different than if I sat down and 
drafted the bill. It is a good bill. It fundamentally improves 
an area where we have responsibility. Whether or not Congress 
loses that responsibility in a year or 2 years, we have it now 
and I think we need to act on that responsibility.
    Senator Carper. Can I make a closing comment?
    Senator Durbin. Sure.
    Senator Carper. Our State of Delaware has about 750,000 
residents. How many people live in the District these days?
    Ms. Norton. Almost 600,000.
    Senator Carper. We are just a little bit bigger. During my 
time as governor, one of the toughest things that I dealt with 
was when we would lose a child from child abuse, killed in many 
cases by a member of the family, a parent. It didn't happen 
often, maybe once a year, but if it happened at all, it was too 
often. It was a painful experience.
    When it did happen. We would look at our courts to see if 
the problem lied with our family court, and they came under a 
fair amount of criticism. If we look at our Division of Child 
Protective Services, the folks who worked there were oftentimes 
criticized by one group or the other or by the media for not 
doing enough.
    I concluded that the courts are clearly part of the 
solution. Clearly, the Division of Child Productive Services is 
part of the solution. But the real solution is working with the 
parents and the families and the folks who are raising the 
kids, to reduce the incidence of teenage pregnancy, to make 
sure that the folks who are having kids are prepared to bring 
those children into the world and to raise them. So while the 
issues you raise here are important, I would go back and say 
that we as a body need to keep that in mind.
    The last thing I would say is I and Dick Durbin, Mike 
DeWine, and Tom DeLay used to work out in the House gym 
sometimes together. And we probably don't look like it today, 
but I remember Tom DeLay used to wear a T-shirt to work out in 
the gym that said ``Don't Mess With Texas.'' And the idea of 
the two of you sitting here--I almost thought that 
Congresswoman Norton might wear a T-shirt that said ``Don't 
Mess With the District.'' [Laughter.]
    Senator Carper. We want to do the right thing.
    Ms. Norton. Thank you. I would like to make one point that 
may not be altogether clear about this bill. I am glad that Tom 
DeLay raised where he started. Tom DeLay started with the 
notion of a family court and you have a 15-year term. I started 
from essentially the situation we have now where you 
integrated.
    I think that what you have done here today is to try to 
bring out the differences so that we can see what is yet to be 
done on this bill. But I think what has to be stressed here is 
how the Senate and House have worked in a bipartisan and 
bicameral way on a bill coming initially from very different 
parts of the family law spectrum on that.
    I think I should also be clear that we called in the court 
for countless meetings. Mr. DeLay, a leader of the House, 
taking his own time to sit down and hear in great detail about 
what the court wanted, tried to incorporate as much of what the 
court wanted as was possible.
    And when all is said and done, while there are differences 
here and there, there really are very few differences left in 
this bill. The term is the one issue that has divided Democrat 
and Republican. Other than that, it is pretty hard to tell, 
based on the fact that we are from different parties, the 
difference between us on this bill.
    I think what has most pleased me about this process is that 
although Tom is the toughest guy to negotiate with in the 
House, the fact is that we were able to get to great agreement. 
Mr. DeWine was Chair when we started this process, and I must 
say that I think in a real sense, particularly affecting the 
District of Columbia and particularly given the differences 
between Mr. DeLay and me in the beginning, the way Mr. DeWine 
in the Senate conducted himself and then Ms. Landrieu, this has 
been a real model of how people who begin with very different 
points of view can come together so that there are almost no 
differences among them.
    Senator Durbin. I would like to ask one last question and 
then make a comment, and the question is this: If we stick with 
the principle of one judge/one family/one child and we know 
that there is a finite limit to how long these judges will 
serve in this capacity out of a 15-year term, is it your 
understanding or does the bill provide for the case to stay 
with the judge once the judge leaves this Family Division?
    Ms. Norton. That is a good question. I am trying to find 
what the words are. We have a limited exception.
    Mr. DeLay. That is a detail I am not sure of. All the cases 
stay with the Family Division. There is a limited exception.
    Ms. Norton. Yes, there is a limited exception so that we 
don't get the same situation we have now where 59 judges really 
have all these cases.
    Senator DeWine. If a judge can finish it in 6 months, he 
keeps it.
    Ms. Norton. That is it.
    Mr. DeLay. Olivia Golden will answer in her testimony.
    Senator Durbin. Let me say this: First, I am on the D.C. 
Appropriations Subcommittee and I want to say to Senator 
DeWine, Senator Carper, and any staffers from Senator Landrieu, 
let's look at the social worker part of this. I don't believe 
we are doing our duty if we don't address the social worker 
part.
    Senator DeWine. I agree.
    Senator Durbin. So, let's do that. And, second, let me tell 
you I don't know how much we can get done in the remaining time 
we will be here. Congressman DeLay probably knows better than 
most in this room how long that time may be, and he may be 
uncertain. I am.
    I want to try to do this right. I just think there is 
entirely too much at stake here for us to do it in a haphazard 
way, but there is entirely too much at stake here for us to do 
nothing. We have to find what our level of responsibility is 
here and devote the time to get it done as well as we possibly 
can in the remaining time that is given to us.
    If it has to be held over to do it right, I am going to ask 
that that happen. But to move it from the Subcommittee to the 
full Committee to the floor and then to conference and to the 
President's desk is a tall order in a short period of time.
    Ms. Norton. It is, although I would ask you to try.
    Senator Durbin. Well, I am certainly going to try.
    Ms. Norton. We have been working on this for a year. We 
have got the money in the bill and the differences are curly-
cue differences.
    Senator Durbin. This was referred to us September 20 or so, 
so the fact that this hearing is taking place in this room at 
this time is an indication of our commitment.
    Ms. Norton. It is.
    Senator DeWine. We appreciate it.
    Senator Durbin. And the commitment will continue.
    Thank you to this panel. We appreciate you being here.
    Ms. Norton. Thank you.
    Mr. DeLay. Thank you.
    Senator Durbin. The next panel includes the Hon. Rufus G. 
King, Chief Judge of the Superior Court of the District of 
Columbia; Dr. Olivia Golden, Director of D.C.'s Children and 
Family Services Agency; Deborah Luxenberg, Chair of the 
Children in the Courts Subcommittee of the Council for Court 
Excellence; and Margaret J. McKinney, Chair of the Family Law 
Section of the D.C. Bar.
    If I could ask you all to please take your seats, I hope 
that what just transpired will continue because it is rare on 
Capitol Hill. It was an actual dialogue. Usually, we are given 
all of 1, 3, or 5 minutes to try to think of inspiring 
questions that might attract the attention of the press. 
Instead, I think we had a conversation, which at this point in 
time may be more beneficial than reading a statement or strict 
time limits.
    I would like to invite each of you to give an opening 
statement. Your complete statements are part of the record. You 
have heard the drift of our conversation. If you could address 
the issues raised and those that you think should have been 
raised and weren't in your few minutes of opening testimony, 
then Senator Carper and I will follow through with questions.
    Judge King, would you like to start?

TESTIMONY OF RUFUS KING, III,\1\ CHIEF JUDGE, SUPERIOR COURT OF 
   THE DISTRICT OF COLUMBIA; ACCOMPANIED BY LEE SATTERFIELD, 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Judge King. Good morning, Chairman Durbin, Senator Carper. 
I will proceed on the assumption that the full statement is 
inserted the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge King appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    Senator Durbin. It will be.
    Judge King. I will try to chop this up pretty much so that 
we can get to the conversation. I very much appreciate the way 
you are doing that.
    Let me begin by expressing gratitude that I am sure is 
shared by all Americans, as you and your staff are pressing 
ahead with business with courage and dignity, despite the 
threats to your personal safety. In these unprecedented times, 
your efforts make me proud to be able to share in the spirit of 
America.
    I want to skip some other parts to go right to the two 
things, I want to outline in very brief form what we see are 
difficulties with the bill, and I also want to point to some 
things that the court is doing to undertake reform, since there 
has been some suggestion that the court doesn't want reform and 
has resisted any efforts to change it.
    Let me emphasize that we have worked very hard and very 
closely with staff. We have tried very hard to make our views 
known, to understand their views, to compromise, to work out 
differences where we had differences, and to clarify where we 
were in essential agreement.
    My understanding was the point of today's hearing was to 
comment on the bills, as written, not as might be undergoing 
some negotiating process where things would be fixed that we 
didn't know about. So my testimony goes to what we have in 
black and white, and as judges, of course, that is what we must 
be concerned with because at the end of the day that is what we 
are going to be governed by.
    Let me detail a couple of things. As I came in as Chief 
Judge, I, along with all of the candidates for that position, 
had agreed that family court was the primary issue that needed 
attention in the Superior Court.
    And, Senator Carper, you correctly point out the court has 
five divisions--criminal, civil, probate, tax, and family.
    When I came in, I appointed a new judge to take over the 
Family Division, as is the Chief's responsibility. We formed 
special task forces to look at the issues, to consult with 
members of the bar, the social service establishment, the 
agencies, the private, non-government organizations, to try to 
come up with recommendations as to what should be done and what 
should be undertaken.
    In addition, realizing the urgency of the issues, I took a 
number of steps that were possible within existing resources 
and staff and funding. I assigned an additional judge to 
expedite abuse and neglect cases, rearranged the calendar so 
that we could address those cases and relieve an overcrowding 
problem that was occurring there.
    I directed remodeling of existing space so that we could 
have a more family-friendly waiting area for the children and 
families appearing in court. I committed the court to a close 
working relationship with the Child and Family Services Agency, 
the CFSA, including biweekly meetings with Dr. Olivia Golden, 
its new Director, and the presiding judge of the Family 
Division.
    And I have made clear to her from the beginning that 
whatever we may disagree on substantively on a particular 
provision, that effort will continue. The court will remain 
open to those discussions and dialogues. When we had a recent 
unfortunate incident where a social worker had not complied 
with a court order and a sanction was imposed, I went over with 
the presiding judge and with Judge Lee Satterfield, who is the 
new, incumbent presiding judge--and forgive me; I do want to 
introduce him. Judge Satterfield has agreed to respond to any 
questions.
    We went over to talk to the social workers to see what the 
issues were and to see if we could better understand the 
pressures they were under and try to work with them and explain 
what we needed to do in order to avoid that kind of unfortunate 
incident.
    In consultation with CFSA on the need of social workers for 
more time in the field, I ordered limits on when neglect and 
review hearings could be scheduled, and that will start in 
January 2002. I directed the court's information technology 
director to proceed with the Family Division as the first phase 
of an integrated justice information system as rapidly as 
possible after congressional approval and after funding is 
available.
    I secured technical assistance from the National Council of 
Juvenile and Family Court Judges' Model Court Project for 
improving case management techniques, training and strategic 
planning in our Family Division.
    Let me interrupt there to say that I think it was said that 
the court has no training. We have, from the time that I came 
on the court, beginning with 2 weeks of nothing but training 
for every incoming judge, with an emphasis on the area where 
that judge is going to come in--so if it is a criminal judge, 
much of that 2 weeks is spent in criminal matters. If it is a 
family court judge, much of that training addresses the family 
assignment that that judge will undertake, along with some 
general training about service as a judge.
    We have had extensive training on the ASFA since its 
passage in 1997. We have had consistent training both at our 
annual preparation for assignment training in December and at 
our 2-day conference in May every year. In addition, I have 
both encouraged and approved judges to travel all over the 
country to conferences, to seminars, to meetings of the 
National Council of Juvenile and Family Court Judges. Judge 
Satterfield was in California recently. Judge Josey-Herring, 
the deputy presiding judge, was in Cincinnati recently.
    So we make every effort to see that our judges are fully 
informed and have the opportunity to refresh their learning and 
to learn new things and to make contacts throughout the United 
States. At my direction, Superior Court judges and Family 
Division staff are continuing additional training in this field 
at this time.
    The court initiated a pilot child mediation project which 
actually, again, contrary to, I think, a statement that was 
made--we have had some mediation in child cases on a very 
limited experimental basis for 2 or 3 years now. It has not 
been lately, although we have had mediation for divorce and 
other Family Division cases. But the reason we didn't do it in 
abuse and neglect cases is because the thinking for the most 
part was that with the imbalance of power and the terror that 
could prevail in a family situation, it was unwise to put 
people into a negotiation situation in those cases. That 
thinking has changed. Safeguards have been worked out. People 
are beginning to work with that, and we are very much in that 
trend and working with it and intend to pursue it.
    I have asked judges to volunteer for terms of 3 years in 
the Family Division beginning January 2002, regardless of the 
outcome of any legislative changes that may be enacted by then. 
I extended the related case rule within the Family Division to 
implement the principle of one family/one judge as much as 
possible, pending additional staff and resources.
    Again, let me just pause a moment. I think there is a 
suggestion that these cases are kicked around from pillar to 
post. When a child comes in, they basically have two judges. 
There is a trial judge who makes the decision, did abuse occur. 
If there is a stipulation that that abuse occurred, then that 
case gets sent to one of the 59 judges, who is that child's 
judge and that family's judge for as long as that child may be 
in the system--one judge.
    In fact, that is only slightly different from what Judge 
McCown does in Texas. He is a civil court judge who has abuse 
and neglect cases which he keeps from beginning to end. We do 
essentially the same thing, except that because of our volume 
we cannot keep them all in the family court. We just don't have 
enough judges to do that with our given resources.
    The resources and the bills here may change that, and that 
will be fine. That could work better. We don't advocate 
spreading them among 59 judges, but it is an adjustment to our 
resources. And the number of cases that are coming in--I won't 
spend a long time on it, but the number of cases went up from 
400 coming in a year back in the late 1980's to now around 
1,600 coming in every year. So we have to find some way of 
placing those cases before judges who have the time and the 
ability to service them.
    Senator Durbin. We have a subtle little mechanism of lights 
that is in the other committee room and----
    Judge King. You are telling me I am too long.
    Senator Durbin [continuing]. I am going to serve as the 
yellow light, so please wrap up, if there are any other 
thoughts you would like to share as you close.
    Judge King. We are not about opposing reform, but we are 
very much against doing it wrong. This is critically important. 
These children are too important.
    I won't dignify the comments that seemed to appear to cast 
aspersion on the dedication of the men and women who have 
chosen service on the Superior Court, and in the Family 
Division in particular. That doesn't mean discussion. You just 
come down and watch us in the court house, if you wish.
    But there are some important issues that I think need to be 
fixed. I don't think it takes a long time and I am not asking 
for a delay in the process, but it is critically important to 
do it right.
    One: Both bills transfer all family cases now pending 
before judges outside the Family Division--that is section 
3(b)(2)(B) in both bills--transfer every case, whether it is a 
divorce case that is under supervision by a judge. I have the 
Haft mediation that took 4 years to settle and they wanted me 
to retain jurisdiction, and that case should not be 
transferred. So it says all bills go back in.
    Two: As written--I don't know whether this was intended or 
not. I rather hope and believe it was not, but, as written, 
H.R. 2657 would impair the operation of the Domestic Violence 
Unit, and S. 1382 would require its dismantling.
    Three: The bills would impose 5-year terms on judges new to 
the bench, and I am going to ask that if that question comes up 
that Judge Satterfield address it.
    Four: The bills micromanage the court in a way that could 
tie our hands, and particularly in ways that we may not be able 
to foresee sitting here today.
    So I thank you for your concern and interest. This is a 
critically important issue to the District of Columbia, and 
your interest and attention is very much appreciated.
    Senator Durbin. Thank you, and when we get into our 
conversation here, I am going to ask Judge Satterfield for his 
comments as well. Dr. Golden.

   TESTIMONY OF OLIVIA GOLDEN, Ph.D.,\1\ DIRECTOR, CHILD AND 
          FAMILY SERVICES AGENCY, DISTRICT OF COLUMBIA

    Dr. Golden. Thank you. Good morning, Chairman Durbin and 
Senator Carper. I am Olivia Golden. I am the new, recently-
appointed Director of the Child and Family Services Agency, and 
it is an honor to be here to testify on behalf of Mayor 
Williams. In my previous life as Assistant Secretary for Human 
Services I worked with many of the bipartisan members on ASFA, 
Adoption and Safe Families Act. So I especially appreciate the 
chance to be here advancing the implementation of that law in 
the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Golden appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    I want to commend the Subcommittee, Senators Landrieu and 
DeWine, Congressman DeLay and Delegate Norton for their 
commitment and leadership on the legislation, and Judge King, 
Judge Satterfield, and Judge Walton for the time that they have 
dedicated to regular planning with us at CFSA.
    As Congresswoman Norton said, the Mayor strongly supports 
the proposals under discussion at this hearing because they 
represent major steps forward toward his key goals of safety, 
permanence and well-being for the District's most vulnerable 
children.
    Enacting court reform now would coincide with the major 
changes that we are making within CFSA and other city agencies. 
To respond to your question, Chairman Durbin, the changes we 
are making within the agency in regard to how we do social work 
need to be synchronized with the changes in the court. Delay in 
enacting this important legislation would risk stalling our 
reform and failing to seize this moment of opportunity. In 
addition, the Mayor believes that full funding for the Court 
and the District's implementation of the legislation is 
critical to reaping the benefits of reform.
    CFSA is responsible for addressing child abuse and neglect 
in the District of Columbia. It came into existence as a 
cabinet-level agency just 4 months ago, June 16, 2001, at the 
close of the Federal court receivership. Its enabling 
legislation, enacted in April 2001, represents landmark reform 
in the District's ability to serve children in a unified and 
accountable manner.
    To serve abused and neglected children, as with any child 
welfare agency, we connect closely with many public and private 
agencies whose functions are inextricably interwined. The 
Superior Court is an integral part of this system, conducting, 
for example, more than 1,400 abuse and neglect hearings in 
September 2001.
    Senator Carper. In 1 month?
    Dr. Golden. In 1 month, absolutely. It is an enormous 
volume, which is why this is so central to us.
    As so many people have commented at this hearing, this 
complex system of services in the District has a long history 
of failing to deliver successful outcomes for children. We have 
an extraordinary opportunity today to change that history 
dramatically by strengthening all of the elements of the system 
together.
    We have that opportunity because the work of Mayor Williams 
and the City Council and the support of the Congress enabled us 
to address a wide range of critical systemic deficits. For 
example: We were able to successfully transition out of Federal 
court receivership.
    CFSA's budget increased by more than $30 million from 
fiscal year 2000 to 2001, which will let us make investments to 
support children, such as investments in social workers.
    The District is currently implementing a major commitment 
to expanding and reforming the legal support for our social 
workers at CFSA.
    CFSA's enabling legislation fixed the issue that 
Congressman DeLay referred to, needing to unify child abuse and 
neglect, which had been fragmented. We achieved that on 
schedule October 1, 2001. So we have unified a fractured 
service delivery model.
    The District has promulgated both foster and group home 
regulations for the first time ever, which will make it 
possible to support and enforce standards of quality.
    Without family court reform, we risk sharply reducing the 
impact of all of these changes. With family court reform, we 
believe that we can achieve the maximum impact.
    Two aspects of the proposed legislation stand out as key. 
The first, every single one of the Mayor's reforms will be most 
effective for children if implemented in conjunction with a 
core group of 12 to 15 highly-trained and well-supported 
judges, as in the proposed legislation, rather than with the 
full 59 judges who now handle abuse and neglect cases.
    The second, both legislative proposals, House and Senate, 
envision key resources and supports that are critical to 
improving the speed and quality of decisionmaking in abuse and 
neglect cases.
    In addition to the Mayor's strong support of prompt 
enactment, my written testimony provides four specific comments 
on the proposed legislation. I will see if the red and yellow 
lights will allow me to highlight two of them and I would love 
questions on the others.
    First--and this goes, I think, Chairman Durbin, to some 
questions you asked--we believe that a key element of 
successful reform is ensuring that child abuse and neglect 
cases are concentrated with a core group of well-trained and 
well-supported judges. We urge the Subcommittee to defer to the 
House provision in regard to circumstances where judges can 
take cases with them when they leave the family court, because 
we believe that it is appropriately narrow and limited to the 
most extraordinary cases.
    We are concerned that the broader exception in the Senate 
proposal could lead to wider dispersal of cases, making it more 
difficult to reap the benefits of reform. In regard to the 
initial transfer of cases, we believe that transfer of cases to 
the family court should occur as expeditiously as possible to 
reap the benefits for children and that core, well-supported 
group of judges.
    Second, resources and staffing are critical to meeting the 
goals of the reform. We strongly urge the Subcommittee to fully 
address the Court's needs, which include staffing, space, 
technology. In addition, the Mayor has identified approximately 
$6 million, as an additional Federal appropriation required in 
fiscal year 2002 to meet the District's responsibilities under 
the legislation, including $5 million to support integration 
across computer systems and $1 million for central liaison and 
agency on-site representatives.
    In conclusion, we believe that a strong family court is the 
final piece needed as we strive to improve the District's child 
welfare system. Many people here alluded to the very sad death 
reported in the Washington Post today. For me, that redoubles 
my sense that we need to reform now and that it is truly 
important to be able to synchronize all of the reforms 
together.
    Thank you.
    Senator Durbin. Thank you very much. Ms. Luxenberg.

   TESTIMONY OF DEBORAH LUXENBERG,\1\ CHAIR, CHILDREN IN THE 
         COURTS COMMITTEE, COUNCIL FOR COURT EXCELLENCE

    Ms. Luxenberg. Good morning, Chairman Durbin and Senator 
Carper. Thank you very much for permitting the Council for 
Court Excellence to offer testimony here today. My name is 
Deborah Luxenberg and I have been in practice for 26 years in 
the Superior Court of the District of Columbia. Currently, I am 
serving as the Chair of the Children in Courts Committee for 
the Council for Court Excellence, and in that capacity I am 
here, but I hope I will be able to share a little bit of my 
practical experience in the court with you as we go along in 
this testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Luxenberg with an attachment 
appears in the Appendix on page 81.
---------------------------------------------------------------------------
    The Council for Court Excellence is a District of Columbia-
based, non-partisan, non-profit civic organization that works 
to improve the administration of justice in the local and 
Federal courts and related agencies in the Washington, DC, 
area.
    For the past 20 years, the Council for Court Excellence has 
been a unique resource for our community, bringing together 
members of the civic, legal, business and judicial communities 
to work in common purpose to improve the administration of 
justice.
    We do have judicial members on the board of the Council for 
Court Excellence, but I would like to stress that no judicial 
member of the Council for Court Excellence board of directors 
participated in or contributed to the formulation of our 
testimony here today.
    At the outset, we really need to remember that one reason 
for the problems perceived in the Family Division of the 
Superior Court is that that division has long been 
underresourced in every category. We applaud the congressional 
priority on family law matters, but we urge the Congress not to 
enact D.C. family court legislation unless there is an equal 
commitment to providing the Superior Court with the necessary 
funding to execute the goals of such legislation.
    Addressing the problems of the court's Family Division is 
laudable, and we understand that the Family Division and the 
court system of the Superior Court is under the jurisdiction of 
Congress and the other elements of the system are not. However, 
it is very important for Congress to keep in mind and for all 
of us to keep in mind the point that Olivia Golden raised, and 
that is that the court system is just one element of the 
process, that Child and Family Services, the police, the 
attorneys who serve the children in the system--everybody must 
work together.
    It is very refreshing to have this momentum from Congress 
and to have the Mayor and the whole city focusing on children. 
It is unfortunate that the deaths of a few children caused some 
of that focus, but the momentum is fabulous, and we thank you 
for the thoughtfulness and the kind of cross-pollenization of 
everybody's ideas that have gone into this process.
    We also really have to commend Chief Judge Rufus King and 
his colleagues for the diligence and quality of the Family 
Division reengineering project that they began in January 2001. 
Many new judges joined the Family Division at that time. There 
was a new presiding judge, and Judge King has implemented a lot 
of changes that were long overdue in the system.
    For all of my 26 years of practice, there have been 
problems in that system. They come from all different places 
and reasons, but a lot of things have been changing very 
rapidly and almost noticeably since Chief Judge King became the 
new Chief Judge.
    Now, I want to turn to specific provisions of the bill, 
beginning with those raised in your letter inviting us to 
testify today. We support the bill's mandate of one judge/one 
family to the greatest extent practicable and feasible, but we 
believe that the effective date of this provision should not be 
deferred for 18 months after enactment.
    Rather, implementation should begin promptly for all newly-
filed child abuse and neglect cases in the system. As to the 
child abuse and neglect cases already open, some cases are 
being handled by judges throughout the Superior Court who have 
been the only constant a child will see. The social workers 
come and go. There have been different attorneys for children. 
There have been different attorneys for families.
    To remove all of those cases immediately just because we 
have the goal to move everything into the new family court 
really doesn't take into account what we are all trying to do, 
which is serve children and give them the continuity that they 
need so that they are not faced with strangers every time they 
come within the system.
    One issue I didn't have in my written testimony but one of 
the Senators mentioned, and I think I should say something 
about it now, is how the one judge/one family principle is 
handled when judges rotate out of that family court.
    The goal of this legislation and the way things are being 
planned is that there will be a team of social workers and 
clerks and magistrates and other professionals all giving 
support to the judges. So if the judge leaves the case, there 
will still be continuity on the case and a team to brief the 
incoming judge.
    Now, what we have had is no continuity in any place in the 
system. In one case I handled within the last couple of years, 
every day I went down to the court system, I had no idea which 
attorneys I would deal with, what social workers I would deal 
with, whether the social worker would be from CFSA or from one 
of the vendors serving that agency. So how do you imagine the 
parents and children feel?
    Second, we support the bill's creation of a new category of 
judicial officer, magistrate judge for the Superior Court, and 
its requirement of specific additional qualifications of 
training and family law experience. We further support section 
6 of the bill which authorizes the immediate appointment of a 
special task force of five magistrate judges to handle child 
abuse and neglect cases which have been open for more than 2 
years.
    However, we believe it is important, because there are 
thousands of cases that have been open for over 2 years, that 
the five-person magistrate task force devote its time to only a 
prioritized portion of those cases. We believe some old cases 
will actually be closed out of the system pretty quickly, but 
there needs to be some strategy to get the oldest and most 
difficult cases moving.
    Senator Durbin. If you can wrap up?
    Ms. Luxenberg. All right.
    We support the bill's provisions extending judicial terms 
in the family court. We support the goal of the bill's 
requirements that all pending family law cases be reassigned to 
the family court, well acknowledging that strict immediate 
implementation of the mandate might cause more harm than good, 
so the 18-month transition period seems to be good policy.
    On some other points, I am pleased to hear that the 
domestic violence court language in the bill has been fixed. 
The domestic violence court is working. It is a model for our 
country. It is one of the finest parts of the Superior Court of 
the District of Columbia and it should remain intact.
    We also believe it is unwise for the statute to lock in 
particular numbers of judges for one division of a unified 
court such as the Superior Court because there may be 
fluctuations in the various types of caseloads and the Chief 
Judge should have authority to make adjustments.
    I second what Olivia Golden said with respect to staffing 
and space. The bill is silent on those requirements, and seeing 
people in family cases where there is a lot of volatility 
sitting in darkened hallways is not a good way to go. There 
needs to be sufficient funding of a decent place for these 
families to have their cases heard.
    We also believe that it is crucial to the successful 
implementation of this family court that the court's plan be 
developed in full consultation and collaboration with the 
various agencies and other participants in the process.
    I would be happy to answer your questions, if you have any.
    Senator Durbin. Thank you very much. Ms. McKinney.

  TESTIMONY OF MARGARET J. McKINNEY,\1\ CO-CHAIR, FAMILY LAW 
               SECTION, DISTRICT OF COLUMBIA BAR

    Ms. McKinney. Thank you, Chairman Durbin, and Senator 
Carper. My name is Meg McKinney. I am the Co-Chair of the 
Family Law Section of the D.C. Bar and I am a resident of the 
District of Columbia. I have been a family law practitioner 
practicing in D.C. and Maryland for approximately 9 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McKinney with attachments appears 
in the Appendix on page 90.
---------------------------------------------------------------------------
    The Family Law Section is comprised of attorneys who 
represent the children and families who will be most affected 
by this legislation. As family lawyers, we have always worked 
to improve the functioning of the Superior Court and the other 
agencies that affect the lives of our clients. We appreciate 
the opportunity to testify.
    Although I understand that many of the issues have been 
addressed in discussions between staff--and I have had many 
conversations with staffers--we were asked to testify on the 
bills as they are currently written, and that is what our 
testimony addressed.
    Getting to this point in the legislative process has, from 
our view, been a long and arduous journey. On behalf of the 
Family Law Section, I would like to thank on the record the 
sponsors of the bill, the Members of Congress, the Senators and 
their staffs, for listening to our concerns and attempting to 
address the issues in a constructive fashion, and for 
continuing to give this issue careful consideration. We are 
also grateful for the efforts to ensure the necessary funds 
that we will need to implement the reforms.
    As the lawyers who represent the children and families, we 
know that the Family Division has long been in need of 
attention and better funding, and we are extremely glad that it 
appears we are going to get both of those now.
    To its credit, during the past 10 months the court has 
spent many hours working with the bar and other stakeholders to 
improve the Family Division, even without legislation. The 
administration of the Family Division has already improved 
significantly. I can say that as a practitioner down there. 
There have been major changes.
    My written testimony points out a number of very specific 
concerns about the two bills that are under consideration, but 
I thought it would be helpful to summarize for the Subcommittee 
the major areas of agreement amongst the court and the bar and 
CFSA and the Council for Court Excellence.
    We all agree that one judge/one family should be the goal 
of the family court. We all agree that there must be sufficient 
funding of the family court this year and in all years in the 
future. We all agree that the new cases should stay in the 
family court, with some latitude--and there is some 
disagreement on how much--to make exceptions for the benefit of 
the children.
    We agree that the reforms should be implemented when there 
is a sufficient infrastructure to handle the cases. We agree 
that the Domestic Violence Unit should not be dismantled or 
diminished by the legislation. Finally, we agree that the 
length of service by judges in the family court should be 
longer than it has been in the past.
    It is clear that we are down to a very few truly 
substantive issues, and except for the length of service which 
I will turn to in a moment, the remaining issues are what I 
think could fairly be described as managerial or implementation 
issues. It is clear from both the bills and the testimony today 
that there is broad support for the general principles 
underlying the bill, and now we are down to the details.
    We are concerned about the micromanagement of the court and 
the potential unintended consequences of over-legislating court 
reform. We urge Congress to do only what is absolutely 
necessary in this legislation to effectuate the reforms and not 
to unduly restrict the discretion of the chief judge.
    Our specific comments on the bills raise several issues for 
the Subcommittee's consideration. It is our understanding that 
some of the proposed changes are non-controversial, and we hope 
that those will be included in the final bill.
    But we must remember that whatever reforms are enacted will 
affect all of the family cases, not just the abuse and neglect 
cases, and the court as a whole. It is important to enact the 
best possible legislation so the system can function well.
    I would like to raise one issue that is not described in 
detail in my testimony but was talked about by the previous 
panel. One of the great frustrations of the family lawyers in 
the District has been our inability to get family lawyers 
appointed to the bench.
    The nomination system is a two-tiered system. First, there 
is the nomination commission and then there is the President. 
Just this spring, a panel of three names went over to the 
President. Two of the three names had significant family law 
experience, which is extraordinary in and of itself. The person 
who was chosen to become a member of the Superior Court was the 
one person who didn't have family law experience.
    So one of the things that we hope will happen is that we 
will be able to get some family lawyers appointed to the bench. 
Incidentally, 6 months later the person who was chosen still 
hasn't made it through the process of being confirmed and 
actually taking the bench, which is another frustration, is how 
long it takes to get people appointed to the Superior Court. It 
causes problems, as you might imagine, with court 
administration.
    Turning to the length of judicial assignment, in June, 
before the House Subcommittee, the City Council, the court, the 
Family Law Section, and Dr. Golden on behalf of Mayor Williams 
testified that 3 years was the appropriate length of mandatory 
minimum assignment. The Council for Court Excellence agreed 
that 3 years was long enough to meet the goals of the reform 
effort.
    The Family Law Section speaks for the lawyers who represent 
the residents of this jurisdiction and who actually function in 
the Family Division. The Mayor and the City Council speak for 
the residents of the jurisdiction, the actual consumers of the 
court.
    As the stakeholders of this system, the consumers of this 
court and the residents of this jurisdiction, I believe it is 
our vote that should carry the day on the length of assignment 
in this jurisdiction. Other jurisdictions have chosen their own 
term lengths, some of them longer than 3 years, some of them 
shorter.
    Florida recently chose 3 years. Maryland has chosen 1 to 2 
years. Chicago uses 2 years. It is clear from comparing 
jurisdictions across the country that there is no real right or 
wrong answer. The point is that the other jurisdictions have 
been able to choose the length of assignment that best fits the 
particular needs and limitations of their jurisdictions.
    With all due respect, and with gratitude to the Members of 
Congress and the Senators who have worked so hard on this 
legislation and who have followed through on their commitment 
to provide the court with the funds it desperately needs, we, 
the residents, the stakeholders, and, yes, the judges, should 
be able to choose the length of assignment in our court.
    So thank you for allowing me to express my views on behalf 
of the Family Law Section, and I would be happy to answer 
questions.
    Senator Durbin. Ms. McKinney, what is the average waiting 
time--yes, Senator Carper?
    Senator Carper. We all serve on a bunch of different 
committees and one of my committees is meeting next door on 
insurance. So I just want to say thank you to the witnesses for 
participating.
    Senator Durbin. Thank you.
    Ms. McKinney, what is the average waiting time when you 
arrive in court before there is a hearing?
    Ms. McKinney. I think that varies from calendar to 
calendar. I mean, typically, in my experience, there is an 
initial calendar call.
    Senator Durbin. Is it a cattle call where everybody comes 
at the same time?
    Ms. McKinney. It varies from calendar to calendar, but 
typically, yes. I think it is not so much that way with the 
abuse and neglect courtrooms, but, yes, it is substantially 
that way.
    Senator Durbin. Judge King or Judge Satterfield, have you 
ever taken a look at what other jurisdictions have done to 
stagger the call so that people don't have to wait 2 or 3 hours 
for a hearing?
    Judge King. We are looking at that.
    Judge Satterfield. I think we have looked at that. We 
looked at that for our Domestic Violence Unit over the years. I 
know when I was the presiding judge of that unit, we looked at 
those issues and tried to stagger it. I know in our abuse and 
neglect calendars, the judges typically will set each one trial 
that day and maybe a pre-trial or something to that effect, and 
other trials later on. So judges are staggering. It does depend 
on the calendar.
    That is something that we look at, but oftentimes when we 
did not schedule cases at the 9:30 call, a significant number 
of them, the judge sat in chambers or sat on the bench, 
depending on which judge you were, with nothing to do because 
the lawyers were not there or some parties did not show up. So 
we have to over-book so we can be in business, so we can get 
the calendar done.
    Senator Durbin. How often is that the case where you have 
continuance because of the failure of one party to appear?
    Judge Satterfield. Well, it happens. It is not uncommon. I 
mean, it is not an uncommon thing where it is not just a 
continuance, but a delay in the proceedings when people don't 
appear, whether they be social workers or the lawyers that we 
have to get together when they show up. So that is a common 
occurrence.
    Senator Durbin. Let me tell you why I ask that because I 
have tried to do a little calculation based on some of the 
things we have heard this morning and Dr. Golden's testimony. 
Let's assume we have these 15 judges in this court and they 
have a current caseload of 4,600 or so, so they each have 300 
cases assigned to them.
    According to Judge King, they will need about four hearings 
a year under the current circumstances. So that is 
approximately five hearings a day. Is that realistic when you 
look at the----
    Judge Satterfield. That is on top of the other trial 
matters that they might have in neglect and abuse cases. When 
we are talking about the cases coming back in, those are cases 
trying to achieve permanency that there has been a finding of 
neglect. So the numbers that you cite are on top of the 
additional numbers that the judge is going to have to deal 
with.
    Senator Durbin. Well, the same question: Is this realistic?
    Judge King. It is realistic. What happens is you get 5 
minutes per hearing and the judges are basically neutralized as 
an effective force in protecting children. This is what we had 
in the 1970's and the 1980's. We had, we used to call it 
courtroom 2, and all the neglect and abuse review cases came on 
one calendar and you might have 15 reviews in an afternoon, or 
20 reviews. By the time you got all the lawyers in place and 
opened the hearing and started hearing it, it was 5 minutes.
    Senator Durbin. Dr. Golden, first, is my math right? It is 
close. Go ahead.
    Dr. Golden. I would make two points. The first is that the 
volume is high, and that is why the resources, both the 
judicial staffing and the magistrates, are really important to 
make this work.
    But the second point I would make is that, to us, when we 
look at what could bring children to permanence, comply with 
ASFA, the reason you saw Senator Carper's response to that 
number of hearings--it is very high even in relation to our 
caseload, and that is partly for all kinds of reasons that lead 
to the hearings not being as successful, not being able to make 
the decision at that moment.
    It is partly about our ability, with our social workers and 
the Corporation Counsel, to staff 59 courtrooms. It is partly 
about the difficulties of scheduling effectively. If you have 
12 to 15 judges and you have a team, you can know how to work 
together and you can know you will be in court on this day, you 
will be out in the field seeing children this day. So it can be 
much more effective. Part of my goal would be that we having 
fewer but more effective hearings that would get children to 
permanence much faster and will be the goal of the legislation.
    Senator Durbin. Here is the point I am getting to, and this 
is an old saying, but they say it. If the only tool you own is 
hammer, every problem looks like a nail. So right now we are 
talking about judges, how many in the courtrooms, whereas the 
discussion here leads us to conclude that this is a corporate 
effort involving a lot of different people to make this work.
    If we pronounce great success here in the passage of 
legislation that establishes 15 magistrates----
    Dr. Golden. Plus the 15 judges.
    Senator Durbin [continuing]. In the situation and they have 
5-minute hearings with social workers, with 50 to 100 assigned 
to them, how much success are we going to see in this system, 
how many more cases like those that were----
    Dr. Golden. Well, I would turn it around. If we continue 
trying to manage cases across 59 judges who don't have the 
support in the legislation, then I think it will be very hard 
for our reforms to take effect. But if we match our reforms--
for example, we are doubling the number of attorneys to support 
our social workers. We now have the resources to recruit social 
workers.
    Senator Durbin. What is your goal, incidentally, on the 
caseload for social workers?
    Dr. Golden. The goals in the Federal court agreement--there 
is a modified final order--depend on the type of case, so they 
differ on different cases. An intake worker would be aiming for 
12 investigations; an ongoing worker 20, or something like 
that, families in some cases, children in others. We certainly 
have many social workers over that now. We have resources to 
dramatically----
    Senator Durbin. Was Judge King's number correct, 100 cases 
per social worker?
    Dr. Golden. I haven't ever heard anyone suggest that as an 
average. It is certainly true that----
    Senator Durbin. Judge, where did you come up with that?
    Judge King. It is not an average; it is as much as it can 
be, 60, 80, 100. It is far more than the 20 that I think we all 
agree is the optimum level.
    Dr. Golden. The resources that the City Council and the 
Mayor have put into our budget include a range of financial 
incentives.
    Senator Durbin. But the point I am trying to get to is 
this: Let's assume we do everything, the reforms we have all 
talked about, and we have all the judges sitting downtown and 
we decide that we are going to have these hearings and they are 
going to get 10 minutes, instead of 5. And I am worried about 
this family situation and I see keep an eye on this family; the 
child is back with the family, but I am not sure. In this 
morning's paper, it tells us if the social worker isn't there 
doing the job, all the judges downtown really aren't going to 
make that big a difference.
    Now, what I am trying to do is to suggest that if we are 
going to do this, let's do it in a holistic, complete way.
    Dr. Golden. Absolutely. That is exactly the reason we feel 
so strongly.
    Senator Durbin. I am asking, from the District side of it 
as you support this legislation, what are you going to do to 
support the corporate entity that is necessary to make it work 
successfully?
    Dr. Golden. My testimony listed four or five steps, but let 
me go beyond that. I completely agree with that perspective. It 
is a corporate agenda. That is why we need it now.
    To give an example, as we recruit dramatically more social 
workers and as we reform the structure of legal support for our 
social workers, because that is a big issue in many of the past 
situations with children--we have now doubled the number of 
attorneys supporting our social workers and we have 
restructured so they can plan together. Now that we have that 
team, that makes it just the right moment for us to be able to 
work with the core group at the family court.
    One of the things we hear from social workers, to go back 
to the retention issue, is that one of the things that drives 
people away is the sense that they can't do a good job. They 
are working with 59 judges who have different levels of 
knowledge, experience, and training. They are constantly trying 
to get to a courtroom. It conflicts with being out in the 
field.
    Judge King has done everything he could do within the 
existing structure, but what we need now is structural changes 
so that our part of the corporate changes and the court's part 
can go together.
    Senator Durbin. Ms. McKinney would take exception to this, 
but we are being very specific and very finite when it comes to 
judges and how many judges will be in the courtroom working.
    What is your goal? Give me something specific in terms of 
the caseworker load that is going to come out of the reforms 
you are talking about, taking a look at the budget you have 
submitted to Congress and what your plans are. Will we see a 
dramatic increase in caseworkers to support the reforms that we 
are talking about in the court? What is the number?
    Dr. Golden. The number that I have been working with is an 
increase of about 80 or 90 caseworkers, beyond the 230 that we 
have now. We don't know for sure what the right number is for a 
couple of reasons. One is we also believe that cases are in the 
system much too long, and so as we do this reform it reduces 
our caseload because as we speed up children's movement out, we 
are able to have fewer social workers.
    Another reason that it is hard for us to know for sure is 
the dramatic nature of our reforms which brought abuse and 
neglect together. We made estimates of the impact that will 
have on caseloads, but to the extent that the system works 
better for families and we hear about more situations, it is 
hard to know for sure. But our initial estimate is about 80 to 
90 additional social workers.
    What we need to get that done is a system that we can 
recruit people into because they find it satisfying and they 
can succeed. When I talk with those of my social workers who 
had experience other places, they actually talk about the 
teamwork aspects of a family court kind of approach in other 
jurisdictions as one of the things that makes the work feel as 
though you can make a difference, rather than be frustrated and 
leave.
    Senator Durbin. Ms. McKinney and Ms. Luxenberg, would you 
comment on your practical experience? When we talk about all of 
the elements that have to come together for the good of the 
child, we have talked a lot about judges, but if this is going 
to work, I think it involves a lot more.
    Ms. McKinney.
    Ms. McKinney. Well, I think the problems you were alluding 
to are precisely the reasons why we have to be careful with the 
legislation. The judges are the ones who are in the best 
position to determine how to keep the court system running, 
given the changes that are hopefully going to happen with CFSA 
and the other limitations in the court system. That is why we 
think it is important to let the judges control the phase-in of 
the reforms.
    It is a difficult system. In some cases, you have four 
lawyers who are due for the hearing, a social worker, sometimes 
two social workers, a host of witnesses. It is difficult to 
coordinate under the best of circumstances, and that is why 
from our perspective this is a work in progress and we have to 
give the court the flexibility to phase it in and to make 
adjustments and to make the modifications that are necessary so 
they can handle all the cases and so that we will have enough 
judges and staff.
    Senator Durbin. What is a realistic number of hearings that 
a judge can have each day?
    Ms. Luxenberg. I guess the question is what kind of 
hearings are you talking about.
    Ms. McKinney. Right.
    Ms. Luxenberg. As a practitioner, one of the things that I 
have been concerned about is the reform effort has all come 
about because of some children who have died, abused and 
neglected children. But the family court is made up of many 
kinds of cases, so that there are divorce cases, custody cases, 
adoption cases, paternity and support cases, and abuse and 
neglect cases in the system.
    When we talk about whether a staggered system works or 
whether attorneys aren't down there for the hearings, I think 
it really depends on what kinds of cases we are talking about. 
Traditionally, in the abuse and neglect system there were many 
parties and players required for each case, and some of the 
attorneys appointed to represent the children were supposed to 
be in three courtrooms at the same time.
    So I myself have gone up to drag somebody out of a 
courtroom because a judge was ready to take us and we didn't 
have this one last lawyer and I had to look through every floor 
of the Superior Court. I do not wear heels when I go to the 
Superior Court. I wear flat shoes, OK?
    So you have cases where there may be 10 people involved. 
Then you have uncontested divorce cases where for a long time 
you would go to court for a 5-minute hearing and the courtroom 
door wouldn't be unlocked. You would not know when somebody was 
going to take the bench, and there was always an excuse that 
the cases weren't all ready.
    These are some of the changes that I have seen happen 
recently. I was in court 2 weeks ago, in front of one of the 
judges in the Family Division. He was on the bench, he moved 
his cases, he had all of the consent custody cases in a row. 
And then the most refreshing thing he said: Are there any 
attorneys here who have a continuance or have a short matter 
that we can clear out of our calendar?
    And I raised my hand and they couldn't find the file, which 
has always been a problem. So we hope with the computerization 
of the system that one of the most frustrating parts of 
practicing in the court system for all of us will disappear. 
But in the situation I just referred to, I was gone in 2 
minutes. So I think it is important to remember as we focus on 
the abuse and neglect cases, that the Family Division has a 
great variety of cases.
    Those families involved in the abuse and neglect cases--may 
have a range of related cases--custody actions, and adoption 
actions. They go across all parts of the system, and it is very 
complicated.
    I am concerned about the resources and I do think it is 
important that when we fix one piece of the system--and I say 
the focus on the abuse and neglect--that we don't neglect the 
other types of cases in the system as well.
    Senator Durbin. Judge Satterfield.
    Judge Satterfield. I want to comment on the return of the 
cases to the ``family court'' that is being created. What we 
are afraid of is that while we are going to have this great 
name, ``family court,'' within the Superior Court and we are 
going to return these cases there and they are cloaked with 
that name, they are going to be at greater risk, and they are 
going to be at greater risk because of some of the things that 
we are talking about today.
    Our goal, just like everybody else's goal, is to achieve 
permanency for the children very fast, in their interests and 
serve them. But the number of hearings are not going to change 
once they are cloaked with the family court's emblem because 
the social workers are overloaded. They want to do a good job. 
They have too many cases and they can't do a good job. Because 
they have so many cases, they attend a lot of different 
hearings. But when that caseload goes down, which I don't think 
is any time in the future, especially given the demands of the 
bill for when these cases come back in--when their caseload 
goes down, they don't have an ability to handle these cases.
    The other problem is the resources for placement in this 
town. I mean, the fact is these children come to Superior 
Court, a lot of them badly damaged by their parents. They come 
to us at age beyond 8 years when we get them. The statistics 
show the probability of them being adopted at that point is 
lower than the probability of them waiting, and they wait and 
they wait and they wait. And that is the healthy children.
    I am an adoptive parent. My wife and I chose to adopt. We 
made a very private decision to adopt, very personal. So I 
don't make any judgment calls on people's decisions as to what 
they want to adopt, what type of child, girl or boy. In fact, 
we got our boy because somebody didn't want a boy when they 
were lined up to get them and they took the girl that was born. 
So we were fortunate and we love our child.
    But the fact is people will travel around the world to 
adopt a child before coming to the District of Columbia and 
adopting one of these children who are sitting and waiting. 
That is their judgment call and that is fine. I don't judge 
them. That is their personal decision, but we have extended the 
resources that we have. I mean, the resources in this town that 
have done most of the adoptions have been to single black women 
in this town and we have extended that resource and we need 
more help to take on these children. Until those things are 
solved, we can put this on in the family court, but the 
problems are still going to exist and there are still going to 
be hearings.
    As a person who has been a resident of this town, born and 
raised here, worked in Superior Court as a lawyer and as a 
judge, to hear words like ``turf war'' and fate of the children 
behind the interests of the court and things of that nature--I 
know these judges and I know from my own personal experience 
that that is not the case; that we are here to serve those 
children, and no one wants a cranky old judge, burned out, 
serving these children.
    Senator Durbin. Talk to me a second about that, the two 
judges who are here, about this burn-out factor. I am trying to 
get my hands on this because I have not faced this and I want 
to understand what you all think.
    Is 3 years unreasonable to ask someone to sit in this 
particular call and to deal with these cases? Is 5 years too 
much? Give me your own feeling, Judge Satterfield, and then 
Judge King.
    Judge Satterfield. Well, we think 5 years definitely is too 
much. We think that puts the children at greater risk, as well 
as the cases coming back into the system. The Chief Judge has 
committed to 3 years and, in fact, has asked the judges who are 
coming on in January or the ones staying that they will serve a 
consecutive 3 years. The ones that have been in the division 
will continue to serve their tour. So he has committed to doing 
that.
    And we are not alone out here with this whole issue. I 
mean, if you examine even some of the select States that the 
Council for Court Excellence has indicated with newly-created 
statutory family courts, if you look at some of the courts that 
are similar to ours, they have been addressing this same 
problem.
    Michigan gives the chief judge the flexibility to determine 
the terms because of issues like this. In Missouri, while they 
have indicated 4 years on their chart, if you look at the 
statute closer, the chief judge has the ability, or the 
presiding judge has the ability to shorten or lengthen that 
term, depending upon the circumstances of the individual family 
court judge. In Vermont, the magistrate judges who are listed 
here for 6 years don't handle abuse and neglect cases. If you 
look at the statute, their judges rotate.
    These are courts that are similar to ours. You can't hold 
out Nevada because they are suffering out there. In 1998, their 
panel instituted legislation trying to have the general 
jurisdiction court switch with the family court judges for some 
period of time to avoid burn-out. So we are not alone in this.
    We are not doing this because we want our confidence level 
up. We are doing this for the children. We are not alone out 
there in understanding that there is a burn-out factor. You 
have social workers that can't be retained. You have the very 
lawyers that you want us to select from who are saying that 
they know there can be a burn-out factor, and that is why we 
think a maximum of 3 years is important.
    So it is very heartening to hear that we are talking about 
turf wars or confidence level of judges when we are talking 
about the children in this case when we say that there is burn-
out.
    Senator Durbin. I would like to just posit this as one of 
the thoughts for those who are for the reform. Would you agree 
that we would want to give to the Chief Judge or someone the 
ability to keep a case with a judge?
    I assume that of 59 judges with cases now, some have been 
on the same family situation for years and have a level of 
understanding or expertise that we would not want to lose, 
maybe a connection with that family we would not want to 
automatically lose by transferring that case away.
    On the other side of it, wouldn't we also want to create 
some flexibility, if a judge leaves the family law court, that 
the case could go with that judge, for the same reason, that 
there is a good bond here, a good relationship and it is in the 
best interests of the child to stick with that one judge?
    Dr. Golden.
    Dr. Golden. Let me speak both from my experience at the 
Federal level working on the design of ASFA and looking at 
other jurisdictions, and then the District. What we are trying 
to accomplish for children is permanence and safety. On a 
child's time frame, a child of 5 years old, 2 or 3 years in 
foster care is a long time. The 4 or 5 years that you describe 
in Chicago, and that has happened here sometimes, is a 
terrifying thing that truly damages a child's development. So 
our goal is a permanent family for that child.
    I think we have to assess all the strategies for dealing 
with that, not on whether a member of the team--the judge, the 
social worker, the lawyer--their length of time with the child. 
What we are trying to assess is what overall structure enables 
that child to get to a permanent family quickest.
    I think the national experience, as well as our experience 
in the District, says that we can't get to that when we have 
cases dispersed so broadly. We don't have the supports for the 
judges when there are 59. We don't have the ability to work 
in----
    Senator Durbin. I am talking about the transition.
    Dr. Golden. Right.
    Senator Durbin. I am talking about a transition in and out 
from the current system to the reform system or the changed 
system, and then once that is in place there is going to be a 
turnover of judges. I am asking whether or not you believe, in 
the best interests of the child, there should be at least an 
option so that someone can stand back and say this judge 
understands this family. He has been through 3 years of 
hearings in family law court, and to just yank this judge away 
is to lose this knowledge they have, and relationship.
    Dr. Golden. What we propose--and, again, it comes a lot 
from the national experience and the changes that people have 
had to make to achieve the best interests of the child--is that 
when a judge leaves, the exception in the House bill, which is 
also our proposal, is a narrow one.
    Senator Durbin. Six months.
    Dr. Golden. Well, I think it is not in months. It says only 
if you are about to achieve a placement under ASFA and the move 
would disrupt it. The reason for that is that the cases that 
have been around a long time to us seem likely to be the most 
fragile children and the ones that most need the support that 
the family court and the team in the family court can offer. 
There will be a judge-magistrate team. There will be the array 
of other supports that will give that case the best service 
possible.
    So I know it is a judgment call, but I think for us the 
weight of the evidence says that having those children served 
by the best possible services is going to be the way to go in 
most of the cases.
    Senator Durbin. Well, I thank you.
    Judge did you want to comment?
    Judge King. Only that I think there seems a premise that 
the judges are the hold-up, the reason these cases are not 
reaching permanency. I am sure there are some judges who are 
better at this than others. I doubt it, but judges work very 
hard. We, believe it or not, do not go out looking for extra 
work. We don't want to retain cases that can safely be closed 
in a permanent resolution.
    Chicago dropped the dramatic 60,000 down to 20,000 because 
they have a strong guardianship law. We have a new guardianship 
law which the lawyers are just getting used to and deciding how 
to recommend to their clients. So it hasn't been used very 
much, but this may enable us to close a lot more cases.
    But I think if you premise legislation that says absolutely 
no exceptions to the rule that they have to, except for a time 
if it is going to close, there is going to be inevitably that 
child for whom it is decidedly an increase in danger or an 
increase in harm to say, I am sorry, I would like to help you, 
I would like to stay with you, but the law says I can't.
    Senator Durbin. Thank you all very much for coming.
    Dr. Golden. Thank you very much.
    Senator Durbin. I hope that we can move this toward passage 
soon.
    We are adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 76803.001


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                   - 

</pre></body></html>
